APPENDIX

INDEX TO APPENDICES
APPENDIX A

OPINION AND JUDGMENT OF THE UNITED
STATES COURT OF APPEALS FOR THE ELEVENTH
CIRCUIT (03/25/2021)………….…………………………………...A1

APPENDIX B

ORDER DENYING MOTION FOR REHEARING OF
THE UNITED STATES COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT (05/26/2021)……….…………………….A41

APPENDIX C

ORDER DENYING PETITION FOR WRIT OF HABEAS
CORPUS BY THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF FLORIDA, OCALA
DIVISION (10/22/2018)…………………………………………….A43

APPENDIX D

JUDGMENT OF THE UNITED STATES DISTRICT
COURT FOR THE MIDDLE DISTRICT OF FLORIDA,
OCALA DIVISION, (03/20/2019)………………………..………..A68

USCA11 Case: 18-14857

Date Flied: 03~5/2021

Page: 1 of 39

[PUBLISH]
IN THB UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-14857
D.C. Docket No. S:15-cv-00354-WIH-PRL
LUTHER MCKIVER,

Petitioner-Appellant,

versus
SECRETARY,FLORIDA DEPARTMENT
OF CORRECTIONS, ATIORNEY GENERAL,
STATE OF FLORIDA,
Respondents-Appellees.
Appeal from the United S1atesDis1rict Court

for the Middle District of Florida
(March 25, 2021)

Before MARTIN, LUCK.,and BRASHER, Circuit Judges.
BRASHER, Circuit Judge:
After a Florida jury convicted Luther McKiver of trafficking oxycoclone,a

state postconviction court granted McK.ivera new trial based on allegations that his

Al

USCA11 Case: 18-14857

Date Filed: 03125/2021 Page: 2 of 39

trial counsel was ineffective. But McKiver's success was short-lived. The state

appealed, and an appellate court reversed in a one-sentence order. Eventually,
McKiver filed a federal habeas petition that argued his trial counsel was ineffective
for failing to investigate and present (1) certain witnesses who would cast doubt on
the state's case and (2) the crirnina)history of a key state witness. The district court
denied McKiver's petition, and McKiver appealed.
McKiver's appeal requires us to answer two questions. First, we must
determine whether the state appellate court unreasonably applied Strickland v.
Washington,466 U.S. 668 (1984), in rejecting the witness-testimony claim. Second,
we must decide whether we may excuse McKiver's procedural default of his

criminal-history claim under Martinez v. Ryan, 566 U.S. 1 (2012). We conclude that
the state appellate court did not unreasonably apply Strickland in rejecting the

witness-testimony claim and that McKiver cannot surmount the procedural default
of his criminal-history claim. Accordingly, after careful consideration and with the
benefit of oral argument, we affirm the dis1rictcourt's denial ofMcKiver's petition.

I. BACKGROUND
The factual and procedural history of this case consists of four parts:
McKiver' s crime, his trial proceedings, his postconviction proceedings, and the
parties' subsequent appeals and petitions.
A. McKiver 's Crime
2

A2

USCA11 Case: 18-14857

Date Flled:·03/2512021 Page: 3 of 39

One Friday in 2008, John Sneed filled three prescriptions for his back injury,
including one for 120 oxycodone pills. The nm day, Sneed took six to eight of those
pills. He went out of town for the rest of the weekend and left the pill bottle behind
in his locked house. When he returned to his house on Sunday, he found that it had
been broken into and that his prescriptions were missing. Sneed notified law
enforcement of the break-in, and a detective was sent to investigate.

During the investigation, the detective interviewed Luther McKiver, who
lived across the street ftom Sneed. McK.iver initially denied brealdng into Sneed's
house, stealing the prescriptions, and using drugs, except "a little weed every now
and then." He also said that he had been away from his house on Saturday and did
not return until Sunday evening. He further alleged that the Sneeds were targeting

him for being ''the only dark-colored skin in the neighborhood." When questioned
further about this statement, McKiver started becoming less coherent and posSl"bly
angry, and the detective ended the interview.
However,just fifteen minutes later, the detective conducted another interview

with McKiver. In this second interview, McKiver confessed that he ~'lied on the fust
one because [he) was aftaid" and admitted that be had broken into Sneed's house,

had stolen the pills, and had a drug-use problem. He specifically admitted 1hathe
stole "prescription bottles full of medicine" and consumed the medicine in the
bottles. The police never recovered any pill bottles or pills.
3

A3

USCA11 Case: 18-14857

Date Filed: 03/25/2021

Page: 4 of 39

McKiver was eventually charged with burglary, grand 1heft, and trafficking
oxycodone in an amount of 28 grams or more. He pleaded guilty to the burglaryand

grand theft charges but went to trial on the trafficking charge. Under Florida law at
the time, unauthorized possession of 28 grams or more of oxycodone was the crime
of trafficking and carried a mandatory 25-yearterm of imprisonment. FLA. STAT.§§
893.03(2)(a) and 893.135(1Xc). Because McK.iver admitted to stealing Sneed's
oxycodone pills, the only question at 1rialwas whether there were 28 grams or more
of oxycodone in the bottle. And because each pill in the bottle weighed 530
milligrams, the issue became whether McKiver stole 53 pills or more.

B. McKiver's Trial Proceedings
At some point, the parties became aware that Sneed might have a criminal
history or may have engaged in criminal conduct, and the state moved the trial court

to exclude any evidence of Sneed allegedly selling or trading narcotics as improper
character evidence. After conferring with his client off the record, McKiver's trial
counsel, Michael Lamberti, consented to the motion as long as the state was not
allowed to introduce evidence that McKiver had taken Sneed's pills in the past. The
court agreed and excluded that evidence. The court concluded the hearing by asking

McKiver directly: "Are you satisfied with [Lamberti's] services thus far?" McK.iver
replied: ''Yes, Your Honor." The court further asked: ''Is there anything that he

hasn't done that you have asked him to do?" McKiver answered: ''No, Your Honor."
4

A4

USCA11 Case: 18-14857

Date Flied: 03,25/2021

Page: 5 of 39

At trial, only four witnesses testified: Sneed, the pharmacist who had filled
his prescription, the detective, and McKiver. Sneed andthe detective testifiedto the
facts described above, and recordings of McKiver's

two interviews with the

detective were played for the jwy. The pharmacist testified that he had carefully
counted and filled Sneed's bottle with 120 oxycodone pills two days before the
break-in at Sneed's house. When McKiver testified, he "admit[ted] [his] guih for
breaking into the house" and taking Sneed's drugs. Although. he recalled seeing pills

in Sneed's oxycodone bottle, he could not remember how many he had taken
because he was already "too high" at the time.

The jmy convieted McKiver of trafficking oxycodone in an amount of 28
grams or more, and the judge sentenced him to a mandatory 25-year term of
imprisonment.

McKiver appealed his conviction and sentence, which the state

appellate court affirmed.

C. McKiver's PostconvictionProceedings
McKiver filed a pro se state postconviction petition arguing that his trial
counsel, Lamberti, was ineffective for several reasons. As relevant here, McK.iver

alleged that Lamberti disregarded his request to investigate andcall four witnesses
who would have testified that Sneed sold drugs, which in tum would cast doubt on
whether Sneed's pill bottle was full when McKiver stole it. The state postconviction
court appointed counsel for McKiver and ordered an evidentiary hearing. Almost
5

AS

USCA11 Case: 18-14857

Date Filed: 03/25/2021

Page: 6 of 39

immediately after being appointed, McK.iver's postconviction counsel requested
Sneed's criminal history. When the request was made, McKiver still had almost
seven months to amend his petition.
At the hearing, three wi1nesses testified: Lamberti, McKiver, and the
prosecutor. Only Lamberti's and McK.iver's testimonies are relevant to this appeal.
To begin, Lamberti testified----md his contemporaneous notes confirmedthat McKiver had given him the names of only two witnesses, neither of which were
mentioned in Mc.Kiver's petition. Lamberti explained that he decided not to
investigate those witnesses because McKiver had admitted multiple times that
Sneed's ox:ycodone bottle was "almost full when [McK.iver] took" the pills. Indeed,
he testified that McKiver told him in the off-the-record conversation at the motionin-limine hearing that calling wi1nesses to testify about Sneed's drug-selling history
''would be a waste of time" because be had ''taken the whole, entire[,] ... just-aboutfull bottle of pills." Lamberti also testified that McKiver never told him that the
proposed witnesses knew that Sneed had sold oxycodone pills in the 48-hour period
between the filling of the prescription and the break-in. Lamberti explained that the

trial strategy-which

McKiver acce~

to argue that McKiver took only a

small handful of pills before leaving Sneed's house and that someone else may have
later entered the open house and taken the remaining pills.
Next, McKiver testified. First, McKiver testified that he had suggested seven
6

A6

USCA11 Case: 18-14857

Date Filed: 03125/2021

Page: 7 of 39

wi1nesses to Lamberti and that he had told him that four of them would testify that
Sneed had sold them oxycodone pills within 48 hours of tilling his prescription. But
McKiver's petition mentioned only four witnesses---one of whom was Sneed's
wife--and never mentioned anyone purchasing ox:ycodone within the relevant 48hour timeframe. Second, McKiver answered a series of yes-or-no questions about
whether his proposed witnesses would have been available and willing to testify at
the time of his trial. He asserted that the witnesses were available and willing to
testify that they hadpurchasedpills from Sneed in the days leading up to the brcak-

in. Third, McKiver testified that he had always told Lamberti that the bottle
contained very few pills. He also testified that at least one of his suggested witnesses

would have been able to tell the jury how many pills were in the bottle.
The post.conviction court granted McKiver's petition. It noted that mri1herthe
pharmacist nor Sneed could "confirm the exact cootents of the bottle." Accordingly~

it concluded that "[t]he witnesses contemplated

by Defendant would have

challenged the testimony of State's witnesses and provided reasonable doubt as to
the quantity for 1rafficking."

D. The Partia , Subsequent Appeahand Petitiona
The state appealed the postconviction court's order on the ground that it was
not "supported by competent substantial evidence." The state appellate court
reversed the postconviction court. In a brief order, it quoted from the standard for an
7

A7

USCA11 Case: 18-14857

Date Filed: 03/25~021

Page: 8 of 39

ineffective assistance claim and wrote "We conclude that [McKiver] failed to meet
his burden of establishing either prong under Strickland and therefore vacate the
order under review and order that the judgment and sentence be reinstated.n

About two years later, McKiver filed a second state postconviction petition.
The petition asserted that Lamberti had been ineffective for failing to investigate

Sneed's criminal history and impeach him with a 35-year-old conviction for selling
marijuana and a 26-year-old conviction for issuing worthless checks, both of which
were punished with probation. The reviewing court denied the petition because

McKiver had not filed it within the two-year statute of limitations. McK.iver
appealed the denial, which the state appellate court affirmed. See generally McKiver
v. State, 187 So.3d 1262 (Fla. Dist. Ct. App. 2016).
McKiver then filed a federal habeas petition raising both the witnesstestimony claim and the criminal-historyclaim. McKiver also submitted several
affidavits in support of his federal habeas petition that he had not submitted to a state

postconviction court. The district court denied the petition. It held that (1) the state
appellate court was not unreasonable in rejecting McKiver's witness-testimony

claim, and (2) McKiver's procedurally defaulted criminal-history claim was not
subject to an exception under Martinez v. Ryan, 566 U.S. 1 (2012), and failed on the
merits anyway.
We granted a certificate of appealability on two issues: ( 1) whether the district
8

A8

USCA11 Case: 18·14857

Date Filed: 03/25~021

Page: 9 of 39

court erred in determining that the state appellate court's rejection of the witness-

testimony claim was not contrary to, or an unreasonable application of, Strickland;
and (2) whether the district court erred in determining that McKiver's criminal-

history claim was not "substantial" under Martinez such that its proceduraldefault
could not be excused.
Il.. STANDARDOF REVIEW
We review de now, a district court's denial of a Section 2254 petition for a
writ of habeas corpus. Jenkins v. Comm 'r, Ala. Dep 't of Co"., 963 F.3d 1248, 1262
(11th Cir. 2020). Mixed questions oflaw and fact are also reviewed de novo, hut the
district court's factual findings are reviewed for clear error. See Tuomiv. Secy,Fla.

Dep 't of Co"., 980 F.3d 787, 794 {11th Cir. 2020) (quoting Hill v. Humphrey, 662
F.3d 1335, 1343 n.9 (11th Cir. 2011)). Whether a claim is procedurallydefiwltedis
a mixed question of law and fact and is therefore reviewed de novo. See Harria v.

Comm'r, A.la.Dq,'t of Co"., 874 F.3d 682,688 (11th Cir. 2017).
Although we review the district court's denial de novo, we review the
underlying state-courtdecision under the Antiterrorism and Effective Death Penalty
Act of 1996 (ABDPA).See Jenkin.,, 963 F.3d at 1262-63 (quoting Cvllen v.

Ptnholster, 563 U.S. 170, 181 (2011)). Under AEDPA, a court cannot grant relief
unless 1he state court's decision on the merits was "contrary to, or involved an

unreasonable application of," Supreme Court precedent, or "was based on an
9

A9

USCA11 Case: 18-14857

Date Filed: 03!25~021

Page: 10 of 39

unreasonable determination of the facts in light of the evidence presented in the State
court proceeding." 28 U.S.C. § 22S4(dXl)-{2).

A decision is contrary to SupremeCourt precedentif the state court applied a
rule contradicting the governing law provided by the Supreme Court or reached a
different

result

from the

Supreme

Court when

faced with

materially

indistinguishable facts. See Tuomi, 980 F.3d at 794--9S (quoting Ward v. Hall, 592
F.3d 1144, 1155 (11th Cir. 2010)). And a decision involves an unreasonable
application of clearly established federal law if the state court correctly identifies the
governing legal principle but applies it to the facts of the petitioner's case in an
objectively unreasonable manner. See id at 795 (citing Brown v. Payton, 544 U.S.
133, 141 (200S)). To be objectively unreasonable, the decision must be more than
merely incorrect or erroneous-it

must be "so lackingin justification that th.ere was

an error well understood and comprehended in existing law beyond any possibility
for fairminded disagreement" Id. at 795 (quoting Harrington v. Richter, 562 U.S.
86, 103 (2011)). For this reason, a state court's determinations are unreasonable only
ifno fairmindedjurist

could agree with them. See Raulerson v. Warden, 928 F.3d

987, 995 (11th Cir. 2019), cert. denied, 140 S.Ct. 2S68 (2020).

m. DISCUSSION
McKiver presents two claims for our review: his witness-testimonyclaim and
bis criminal-history claim. His witness-testimony claim asserts that his trial counsel,

AIO

USCA11 Gase: 18-14857

Date Filed: 0~512021

Page: 11 of 39

Lamberti, was ineffective because he failed to investigate and call certain wi1nesses.

His criminal-historyclaim asserts that Lambertiwas ineffective becausehe failed to
investigate Sneed's crlmfoal history and impeach him at trial. We address each claim
in tum.
A. The State Appellate Court's Decision to Deny McKiver 's Witnesa-Temmo,iy
Claim Did Not Unrearonahly Apply Strickland

We begin with McKiver's witness-testimonyclaim. The state appellatecourt
reversed the state postconviction court and deniedMcKiver's wi1ness-testimony
claim with one substantive sentence: "We conclude that Appellee failed to meet his
burden of establishing either prong under Strickland." McKiver argues that 1hestate
appellate court "identified the correct legal rule"-the

rule in Strickland v.

Washington. 466 U.S. 668 (1984}-"but unreasonablyapplied that rule to the facts."

As an initial matter, we must decide how to review the state court's one-

sentence order. With one quibble,1 McKiver concedes that the state appellate court
denied his claims "on the merits" such thatAEDPA applies.See 28 U.S.C. § 2254(d).

1 In

his reply brief, McKiver argues that the state appellatecourt shouldhave treated his wi1nesstcstimony claim as two separate claims: a claim about Lamberti's failure to investigate certain
witnessesand a claim about his failure to call those witnessesat 1rial.This argumentfails for three
reasons.First, argumentsraisedfor the first time in a party's reply brief are waived.SeeHayna "·
McCallaRaymer,LLC, 793 F.3d 1246, 1251 (11th Cir. 2015); Henry v. Warden,Ga Diagnostic
Prison, 150 F.3d 1226, 1232 (11th Cir. 2014); Timson v. Sampson, 518 F.3d 870, 874 (111h Cir.
2008). Second, Mc.Kiver ftamed these issues as a single claim before the state appellate court and
cannot fault the state court for doing the same thing. Third, under the facts of this case, there is no
meaningful difference in treating these assertions as a single claim because McKivcr does not
arguethat his counselshouldhave investigatedthese witnessesfur somepurposeother than calling
them to testify.
11

All

USCA11 Case: 18-14857

Date Filed: 03/25/2021

Page: 12 of 39

We agree. Although the state appellate court's decision was brief, it clearly disposed
of the witness-testimony claim on the merits andnot on procedural or jurisdictional
grounds. Because the state court resolved the claim on the merits, AEDPA governs
our review. See Raulerson, 928 F.3d at 995 (11th Cir. 2019).

Moreover, we cannot say that the state appellate court's ruling was a ~ummsry
or unexplained disposition of the claim. Under Strickland, a petitioner making an
ineffective-assistance-of-counsel claim must show both that (1) his counsel
perfomied deficiently and (2) the deficient perfonnance prejudiced his defense. See

466 U.S. at 687. Unlike a summary disposition, which gives no reason for a decision,
1'1:e.'!{,P!Sl;11ed
the !!,tAte appe!!atec-01
why it reve..rsedthe pcstccnviction cou..--t's
order:

McKiver had not met his burden of proof under either prong of the relevant test. In
applying AEDPA, we must determine whether any fairminded jurist could agree
with that assessment.See Wilsonv. Sellers, 138 S.Ct. 1188, 1192 (2018) (stating that

when a state court explains it.sdecision, "a federal habeas court simply reviews the
specific reasons given by the state court and defers to those reasons if they are
reasonable").
We believe that fairminded jurists could agree that McK.iver's evidentiary
presentation failed to establish that he met Strickland's test, especially with respect
to it.sprejudice prong. Because both prongs of the test must be satisfied, a court need

not address one prong if the petitioner cannot satisfy the other. See Reaves v. Sec y.
12

A12

USCA11 Case: 18-14857

Date Filed: 03!.!5'2021

Page: 13 of 39

Fla. Dep't of Corr., 872 F.3d 1137, 11S1 (11th Cir. 2017) (quoting Holladay v.
Haley, 209 F.3d 1243, 1248 (11th Cir. 2000)). Indeed, the Supreme Court has

explained that "[i]f it is easier to dispose of an ineffectiveness claim on the ground
of lack of sufficient prejudice, which [it] expect[s] will often be so, that course
should be followed."Strickland, 466 U.S. at 697. To establish prejudice, a petitioner
must show that there is a reasonable probability that the result of the pR'ceeding

would have been different if his counsel had not performed deficiently-a showing
sufficient to undermineconfidence in the outcome of the proceeding.Id at 694. ''1be
likelihood of a different result must be substantial, not just conceivable." Richter,
562 U.S. at 112.
We have explained that this burden is particularly "heavy where the petitioner
alleges ineffectiveassistancein fiilling to call a witness because often allegationsof
what a witness would have testified to are largely speculative." Sullivan v. De.Loach,
459 F.3d 1097, 1109 (11th Cir. 2006) (internal quotation marks omitted) (quoting

United States v. Guerra, 628 F.2d 410, 413 (5th Cir. 1980)); see also Wood.fox v.

Cain, 609 F .3d 774,808 (5th Cir. 2010) ("Claims 1hatcounsel failed to call witnesses
are not favored on federal habeas review because . . . speculation about what
witnesses would have said on the stand is too llllcertain."). And, for that reason, we
have held that a petitioner's own assertions about whether and how a witness would
have testified are usually not enough to establish prejudice from the failure to
13

A13

USCA11 Case: 18-14857

Date Filed: 03/25/2021

Page: 14 of 39

intervieworcall 1hatwitness.SeeSullivan, 459F.3dat 1109; Washingtonv. Watkins,

6S5 F.2d 1346, 1364 (5th Cir. 1981) ("All we have is what (the petitioner) saysthey

would have said ....

[A]ny inadequacy in [the petitioner's] represent.ation 1hat is

attributable to his failure to interview [certain nontestifying wi1nesses] must be
deemed completely nonprejudicial . . . given his utter failure to establish at his
federal habeas hearing that the non.testifying [witnesses] would have corroborated
[his] alibi defense."); Guerra, 628 F.2d at 413 (denying an ineffective assistance
claim because "[n]one of the alleged witnesses were called at the § 2255 hearing and

no one knows what they would have testified to"). Other circuits have come to a
similar conclusion. See Wooqfox.,609 F.3d at 808 (holding that a petitioner must,

among other things, demonstrate ''that the wi1nesswas available to testify and would
have done so"); Sanders v. Trickey, 875 F.2d 205,210 (8th Cir. 1989) ("Appellant's

claim also must fail because he has not shown how he was prejudiced" because he
"produced no affidavit or testimony from [the witness] to the effect that she would
have testified at trial that appellant was innocent.").

We cannot say that the state appellate court was unreasonable in concluding
that McKiver failed to cany his evidentiary burden to establish prejudice. At his
evidentiary

hearing

before the postconviction

court, McK.iver-who

was

represented by counsel-did not call or submit written testimony from any of the
witnesses who he argues that Lamberti should have investigated and called at trial.
14

A14

USCA 11 Case: 18-14857

Date Fifed: 03Q5f.2021

Page: 15 of 39

The only evidence before the state appellate court was McKiver's own conclusory
testimony about what the witnesses would have said and whether they would have
been available and willing to testify. This testimony is precisely the kind of evidence
that we--and other courts-have

held to be "simply inadequate to undermine

confidence in the outcome" of the procc,eding. Sanders, 875 F.2d at 210 (internal
quotation marks omitted) (quoting Strickland, 466 U.S. at 694).
Especially consideringthe particular facts of this case, a reasonable jurist
could conclude that McKiver's testimony alone failed to establish prejudice.
McK.iver's testimony at the evidentiary hearing was inconsistent with what he bad
said on the record at the motion-in-Hmine hearing-that he was satisfied with·his
counsel's decision not to present evidence about Sneed's alleged criminal conduct.
And, because the state needed to prove only that McKiver stole 53 of Sneed's
original 120 pills, the missing witnesses had to account for at least half of the bottle's

contents to have affected the result. But, for all the state courts knew, McKiver's
witnesses might have testified to seeing a high enough number of pills to support the
state's case, not undennine it For example, McKiver said one witness would "testify
as to how many pills or approxirnately how many pills were actually in that
oxycodone bottle," but McKiver never said what he expectedthat number of pills to
be. Because these witnesses never testified, the state court did not know what they
would have said about the only issue at trial. Under AEDPA, we cannot fault the
15

A15

USCA 11 Case: 18-14857

Date Flied: 03125/2021

PagE1:16 Of39

state appellate court fur rejecting McKiver's witness-testimonyclaim for failing to

meet his burden of proof.
McK.iverargues that the state courts were obliged to accept his testimony at
the evidcmtiaryhearing because the state did not object to its admissibility.But this
argument confuses admissibilitywith sufficiency.The admissibilityof evidenceand
the sufficiency of that evidence are two different propositions. See, e.g., City of

Tusca/tl()Sa
v. HarcrosChems., Im:., 158F.3d 548, 564--65(11thCir. 1998)(b.olding
that courts should avoid "the confusion and conflation of admissibilityissues with
issues regarding the sufficiencyof [a party's] evidence"). The issue here is not the
admissibility ofMcKiver's testimony under the rules of evidence; the issue is the

sufficiencyof that testimonyto meet his burden of proof under Strickland.The state
argues, and our caselaw establishes, that speculative testimony like McKiver'sabout what another person would have said and his or her availability and
willingnes:s to say it-may

not be sufficient by itself to es1ablish prejudice,

regardless of its admissibility.
McKiver also argues that we should consider the affidavitsthat he submitted
to the di.strictcourt. But we cannot consider evidence that wasnot presented to the

state courts. Under AEDPA, our "review is limitedto the reoordthat was before the
state court that adjudicatedthe claim on die merits." Cullen v. Pinholster, 563 U.S.
170, 180-81 (2011). It wouldcontraveneABDPA"to allow a petitionerto overcome
16

Al6

USCA11 Case: 18-14857

Date Filed: 03f.l5'2021

Page: 17 of 39

an adverse stattH:ourt decision with new evidence introduced in a federal habeas

court and reviewed by that court in the first instance effectively de novo."Id. at 182.
See alaoPopev. Secy, Fla. Dep'to/Co"s.,

752 F.3d 1254, 1263 (11th Cir. 2014).

Accordingly, we are limited to reviewing the reasonableness of the state appellate
court's decision based on the record that McKiver made in state court.
Although the state appellate court's decision rejecting McKiver's wi1ness-

testimony claim was

brief.it did not unreasonablyapply Strickland.Consequently,

the district court did not err in denying McKiver's Section 2254 petition with respect
to his witness-testimony claim.
Our dissenting colleague sees things differently and makes at least three

significant errors in doing so. First, she focuses her review on the state

postconviction court instead of the state appellate court. Under AEDP A, we must
evaluate the state appellate court's decision, not the decision of the lower court that

it reversed and vacated See Wilson, 138 S.Ct. at 1191-92. In another context, we
have explained that a vacated opinion is "officially gone" and has Kno legal effect
whatever," and "[n]one of the statements made [therein] has any ren,ainjng force."

United States v. Sigma Int'~ Inc., 300 F.3d 1278, 1280 (11th Cir. 2002); see al110
United States v. M.C.C. of Fla., Inc., 961 F.2d 1559, 1561 (11th Cir. 1992)
("[G]eneral vacation by an appellate court of the lower court's judgment vacates the
entire judgment below, divesting the lower court's earlier judgment of its binding
17

A17

USCA11 Case: 18-14857

Date Filed: 03/25/2021

Page: 18 of 39

effect"). Second, our dissenting colleague asserts that the state postconviction court
found McKiver's testimony to be credible end that the state appellate court adopted

that finding. But the state postconviction

court never made a credibility

determination of any kind and expressly relied on the lawyer's testimony, not
McKiver's. See Doc. 10-6 at 46 ("Mr. Lamberti testified that although Defendant
provided the names of witnesses and their expected testimony he did not investigate
or interview the witnesses or seek a continuance to investigate."). For its part, the
state appellate court did not adopt-implicitly or expressly-anything that the state
postconviction court said or did The state appealed on the grounds that McK.iver
had not proven his claims by substantial evidence, and the appellate court reversed

because it concluded that McKiver ''failed to meet his burden_,, Third, our dissenting
colleague makes much of the implausibility of McK.iver "ingest[ing] over I 00
oxycodone pills in a 48-hour period and somehow surviv[ing] ." But nothing in the
state-court record-not

hearing-suggests

even his own testimony at trial or the post-conviction

that McKiver consumed the stolen pills in two days. The police

interviewed Mc.Kiverten days after the burglary, at which point he said that he had
ingested the pills. Our dissenting colleague's only support for this assertion is a
sentence in McKiver's federal habeas petition, which is not evidence of anything
and was not before the state courts in any event.

18

A18

USCA11case: 18-14857

Date Filed: 03/25/2021

Page: 19 of 39

B. Mc.Kiver 's Criminal-History Claim Was Procedurally Defaulted
We tum now to McKiver's criminal-history claim. McKiver alleges that
Lamberti was ineffective because he failed to investigate Sneed's criminalhistory
such that he could impeach Sneed at trial with a 35-year-old conviction for selling
marijuana and a 26-year-old conviction for issuing worthless checks. Both parties

agree that this claim is procedurally defaulted because McKiver did not timely raise

it in the state courts.
Ordinarily, a stat.eprocedural default is mtal to a federal habeas claim. See
Martinez v. Ryan, 566 U.S. 1, 9 (2012) (describing ''the doctrine of procedural
default, under which a federal court will not review the merits of claim~ inclwling
constitutional claims, that a state court declined to hear because the prisoner failed

to abide by a state procec:luralrule"). But there is a nmrow exception. If a petitioner
can show cause for the default and establish prejudice resulting from the alleged
violation of federal law, then the default will be excused, and federal courts can hear
the claim. Coleman v. Thompson, 501 U.S. 722, 750 (1991). As relevant here, a

petitioner can establish cause for defaulting on a claim of ineffective assistance of
trial counsel where four conditions are met: (1) the claim of "ineffective assistance
of trial counsel" was a "substantial" claim; (2) the claim was defaulted because the
petitioner had "no counsel" or "ineffective" counsel during the state collateral
review proceeding; (3) the state collateral review proceeding was the "initial" review
19

A19

USCA11 Case: 18-14857

Date Filed: 03!.2512021 Page: 20 of 39

proceeding in respect to the "ineffective-assistance-of-trial-counselclaim"; and (4)
state law requires that an ineffectiveassistance of trial counsel claim be raised in an
initial-review collateral proceeding. Trevino v. Thaler, 569 U.S. 413, 423, 428
(2013).
McKive:rargues that his procedural defiwlt may be forgiven under this fourfactor test. The state disputes only the first and second factors.
Under the first factor, to show that an underlying ineffective-assistance-ofcounsel claim is "substantial," a petitioner must establish that "jurists of reason
would find it debatable." Hitt.ton v. GIJCP Warden,159 F.3d 1210, 1269-70 (11th
Cir. 2014) (quoting Slack v. M&Daniel,529 U.S. 473, 484 (2000)). Consequently,
McKive:rmust prove that such jurists would find it debatable that (1) Lamberti
perfonned deficientlyby f•iling to investigate Sneed's criminalhistory and then use
it to impeach Sneed and (2) that those failures prejudicedhis defense. Se,eStrickland,
466 U.S. at 687.

As for the second factor, McKiver must show di.athis postconvictioncounsel

was ineffective for failing to raise this claim in his postconviction proceeding.
Although McKiver filed his first state postconviction petition pro se, the

post.convictioncourt appointedco1.mselalmost sevenmonthsbefore the doadUnPfor
amending his petition and befure the evidentiary hearing. In such cases where
counsel is appointed while there is still opportunity to include a claim in a state
20

A20

USCA 11 Case: 18-14857

Date Filed: 03!251'2021 Page: 21 of 39

postconviction petition, counsel exists for purposes of the Martinez"cause" analysis,
and a petitioner must prove his postconviction counsel's ineffectiveness to excuse a
state procedural defimlt.See Martinez, 566 U.S. at 14-15. To make that showing,
McKiver must prove 1hathis postconviction counsel performed deficiently and that
the deficient performance prejudiced his defense. See Stricldaml,466 U.S. at 687.
Under the metsof this case, both factors come down to a single question:

whether there is a substantiallikelihood that the result ofMcK.iver'strial would have
been different ifhis trial counsel had raised Sneed's criminalhistory for the purposes

of impeachment? We need not address the adequacy of any lawyer's perform~
neither his trial counsel's failure to investigate nor his postconviction counsel's

failure to raise the claim-because

even assuming that both lawyers performed

deficiently,neither lawyer's performance prejudiced McKiver. This is so for three
reasons.
First, even if Lamberti had tried to present Sneed's criminalhistory, the jury
would not have been able to hear it, which is a necessary precondition for this kind
of ineffective assistance of counsel claim. 2 In Florida, when deciding whether to

2 See Kel/eyv.

Sec'y/or Dep'tofCo"., 377 F.3d 1317, 1362(11th Cir. 2004) (reasoning that the
unavailability of certainuninvcstigated evidence "could not have affectedthe result of the case so
as to create prejudice" because "[a] reasonable probabilityof a differentresult is possible only if
the suppressed .information is itself admissible evidence or would have led to admissible
evidence''); Gilreath v. Head, 234 F.3d 547, 551 n.12 (11th Cir. 2000) ("[T]o show prejudice,
Petitioner must show that-but for his counsel's supposedly unreasonable conduct-helpful
characte:revidenoe actually would have been heard by the jury. j; Spaziano v. Singletary, 36 F .3d
1028, 1044 (11th Cir. 1994) ("The result of Spaziano's trial and sent.encing would not have been
21

A21

USCA11 Case: 18-14857

Date Filed: 03/25/2021

admit evidence of past convictions for impeachment

Page: 22 of 39

purposes, courts must

"determine whether the past convictions have a bearing on the present character of
the witness." Trowellv. J.C. Penney Co., 813 So.2d 1042, 1044 (Fla. Dist. Ct. App.
2002). 3 A conviction "so remote in time as to have no bearing on the present
character of the wi1ness" is inadmissible. Children '.sPalace, Inc. v. Jolmson, 609
So.2d 755, 151 (Fla. Dist Ct. App. 1992) (citing FLA. STAT. § 90.610). "[T]he
absence of similar conduct for an extensive period of time might suggest that the
conduct is no longer characteristic of the defendant." Duffey v. State, 141 So.2d
1192, 1197 (Fla. Dist. Ct. App. 1999). Florida courts have held that older convictions
likely do not bear on the witness's present character if there has been a significant
period without subsequent convictions. See, e.g., Trowell, 813 So.2d at 1044 (finding
that "[e]vidence of theft and shoplifting convictions" almost two decadesold ''with
no subsequent convictions would tend to suggest that the witness no longer has a
propensity toward dishonesty, and thus such convictions would have little or no
bearing on his present character"); cf Pryor v. State, 855 So.2d 134, 137 (Fla. Dist.

Ct App. 2003) (holding that the continued acquisition of felony convictions caused
the older ones to "bear□ on his present character''

and be "admissible

for

different, because the information in question is not admissible evidence, and it would not have
led to any admissible evidence.'').
3

"[I]n the absence of interdistrict conflict, districtcourt decisions bind all Florida trial courts."
Pardov. State, 596 So. 2d 665, 666 (Fla. 1992) (emphasis added).
22

A22

USCA11 Case: 18-14857

Date Filed: 03!2512021

Page: 23 of 39

impeachment'').

Applying Florida law to the facts in this case,there is no reasonto believe that
Sneed's criminal history would have been admitted at McKiver's trial. Sneed's

criminal history consists of a 35-year-old conviction for selling marijuana and a 26year-oJd conviction for issuing worthless checks. Sneed had not been convicted of a
felony for 26 years. Consequently, Florida Jaw did not support admitting these

convictions for impeachment purposes. In analogous cases, Florida courts have
affirmed trial courts' refusal to allow convictions like these to be used for
impeachment. See Jones v. State, 16S So.2d 767, 767-68 (Fla. Dist. Ct. App. 2000)
(affirming the trial court's discretion in refusing to admit a nearly 30-year-old
conviction); City of Miami v. Ross, 695 So.2d 486, 488 (Fla. Dist. Ct. App. 1997)
( concluding that the 1rial court did not abuse its discretion by refusing to allow
impeachment with convictions for writing bad checks from "many years ago").
McK.iver ciu:s one Florida case--Riechmann v. State, 581 So.2d 133 (Fla.
1991}-in support of his prejudice argument, but that case is clearly distinguishable.
In Reichmann, the defendant testified and had three potentially admissible prior

convictions that were 21-, 14-, and 13-years-old, 581 So.2d at 13S, 139, 140, and
one of those convictions was for perjury, id at 139. In reviewing the trial court's
decision to allow impeachment on the basis of those convicti~

the Florida

Supreme Court noted that the "remoteness of prior convictions may create a danger
23

A23

USCA11 Case: 18-14857

Date Filed: 03125!2021 Page: 24 of 39

of unfair prejudice substantially outweighing the probative value of the evidence."

Id. at 140. But in that case, it ultimately concluded that the trial court had not abused

its discretion in admitting the impeachment evidence. Id Here, of course, the witness
is not the person on trial, his convictions are significantly more remote, and none of

them is for perjury. See Wardv. State, 343 So.2d 77, 78 (Fla. Dist. Ct App. 1977)
("[W]e think perjury mils in a special category. Such a conviction has greater weight

against the credibility of a witness than any other crime.").
Second, even if the trial court had admitted Sneed's criminal history, there is
no reasonable probability that the outcome of the trial would have been different. To
begin, if Sneed's criminal history had been admitted, the precise nature of Sneed's
crimes would not have been available to the jury. See Jackson v. State, 25 So.3d 518,

526 (Fla. 2009) (''This inquiry [into a witness's convictions] is generally restricted

to the existence of prior convictions and the number of convictions, unless the
witness answers untruthfully."); Howard v. Ruch, 959 So.2d 308, 313 (Fla. Dist. Ct.
App. 2007) ("Although the fact a witness or party was convicted of a crime may be
relevant and admissible for impeachment purposes, the nature of the crime or any
details about the crime are generally inadmissible."). Hence, the jucy would have
learned only that Sneed had two prior felonies 35 and 26 years before the trial and
perhaps that he received probation for both.
McKiver argues that Sneed's criminal history would have been enough to
24

A24

USCA11 Case: 18-14857

Date Filed: 031.25/2021 Page: 25 of 39

affect the outcome of 1he trial because "[t]here was only a single, unimpeached

wi1ness,who testifiedabout the number of pills: Mr. Sneed." He furtherassertsthat
if uMr. Sneed was suddenly a convicted felon" in the eyes of the jurors, the "scales
[of credibility] would have been evenly dis1ributed and the jury would have been
required to review the evidence more equally." But neither assertion is true. Sneed
was not the only witness who testified to the nmnber of oxycodone pills in the bottle:
McKiver concedes that the pharmacist also testified to the number of pills. And
learning of Sneed's convictions would not have equalized McK.iver's and Sneed's
credibility in the eyes of the jury. The jwy had heard McKiver repeatedly and
elaborately lie to the detective in his first interview-which

the jury heard him admit

at the start of the second m.terview.McKiver's assertion that the jury would have

found him and Sneed to be equally credible if it had learned of Sneed's decades-old
convictions is wi1hout merit.

Third, only a substantial deviation in the number of pills would have changed
the trial's outcome. Sneed testified that he consumed six to eight pills, leaving more
than 110 in the bottle. To convict McKiver of 1rafficking oxycodone, the state simply

had to show that the bottle contained at least 53 pills when he took it To change the
result, the jury would have needed to believe that Sneed's estimation of the number
of pills left in the bottle was more than double the actual number of pills that he had.

But McKiver does not explain how undennining Sneed's credibility with felony
25

A25

USCA11 Case: 18-14857

Date Filed: 03125/2021 Page: 26 of 39

convictionswould have helped him show this kind of discrepancy.
For these reasons, thi,re is no reasonable probability that McK.iver's trial

would have reached a different conclusion if his trial counsel had investigated

Sneed'scriminalhistory. Moreover,jurists of reasonwouldnot find this conclusioo
debatable:1hecwnulativestrengthof the foregoingreasons i.ssimplytoo great. We
therefore concludethat McK.ivercannot establishthat his criroiool-historyclaim is
"substantial.,and that his postconvictioncounsel was ineffectivefor not raising it.
Under Martinez, the procedural default is not excused,and we cannot reach 1he
claim. Consequently,the district court did not err in denying McKiver's Section
2254petition with respect to his criminal-historyclaim.

IV. CONCLUSION

For the reasons stated above, we AFFIRM the district court's denial of
McK.iver's Section 2254 petition.

26

A26

USCA11 Case: 18-14857

Date Filed: 031.2512021 Page: 27 of 39

MARTIN, Circuit Judge, concurring in part and dissenting in part:

Luther McK.iveris now servinga mandatory 25-year sentencefor a crime he
committed shortly after he graduated high school. He admitted to stealing
oxycodone pills from his neighbor, John Sneed But Mr. McKiver says, and the
state never disputed, that he consumed those oxyoodone pills within 48 hours of
acquiring them. For this crime, the state of Florida charged Mr. McKiver with the
quite serious crime of trafficking oxycodone, which requires a sentence of no less
than 25 years in prison. Without that charge, Mr. McKiver would have still served
a still serious sentence of almost eight years' imprisonment for the crimes to which
he pied guilty. Under Florida's statutory scheme, a person does not actually have
to traffic drugs in order to be guilt¥ of trafficking. A person's guilt or innocence of

Florida's drug tntffick:ingcrime is determined strietly by the weight of the drug
attributed to them. 1 And in order for Mr. McKiver to be guilty of traffickin& a
jury must have fowid that he possessed at least 28 grams (1 ounce) of oxycodone

between the time he took the pills from Mr. Sneed's home and the time he
consumed them. All parties seem to agree that it would take 53 oxycodone pills to
meet the weight requirement of 28 grams set by Florida's drug trafficking statute.
Since Mr. McKiver admitted to taking the pills, the only real issue in dispute
at his trial was whether the bottle he stole had at least S3 oxycodone pills in it

1

See§ 893.135(1)(c)(l)(c) (2008).

27

A27

USCA11 Case: 18~14857 Date Filed: 031'2512021 Page: 28 of 39

And this appeal presents the question of whether Mr. McKiver's 1riallawyer

rendered ineffective assistance to McKiver in defendinghim on this point In
preparing for trial on this lone issue, Mr. McKiver told his attorney, Michael
Lamberti, about several people who would testify (generally) that Mr. Sneed

regularly sold the oxycodone Sneed kept in his house and (specifically)that Sneed
even sold pills from 1he very bottle McK.ivertook before McK.ivertook it. Despite
the obvious effect this testimony would have in undermining the government's
claim that Mr. McKiver took at least 53 pills from Mr. Sneed, Mr. Lamberti never

even attempted to contact any of the witnesses McKiver identified.
This appeal arises from Mr. McKiver's attempt to get a new trial on the
ground that Mr. Lamberti gave ineffective assistance of counsel to him on this
important issue of the weight of the drugs he consumed. The state postconviction
court that heard Mr. McKiver's claims in this regard agreed with him.
Nevertheless, and in a one sentence order, containing no analysis or any reference
to the facts, the Florida appellate court vacated the state postconvictioncourt's

decision. Upon review here, the majority opinion says this one sentence order
from the Florida appellate court is a reasonable application of Strickland v.
Washington, 466 U.S. 668, 104 S. Ct. 2052 (1984). I say it is no~ so I respectfully

28

A28

USCA11 Case: 18-14857

dissent

Date Filed: 03/25/2021

Page: 29 of 39

2

L

Mr. McKiver became addicted to prescription opioids prescribed for him
after he had knee surgeiy during his high school years. In 2008, shortly after
graduating from high school, Mr. McK.iver lived with his grandparents across the
street from Mr. Sneed. In December of that year, Mr. Sneed filled three
prescriptions for opioids, including a bottle of 120 oxycodone pills. Mr. Sneed
says he took only six to eight pills per day for personal use. Then, two days after

Mr. Sneed filled that oxycodone prescripti~

Mr. McKiver broke into Mr. Sneed's

home, already intoxicated, stole that bottle, and swallowed whatever pills were in

it The police never :recovered
the bottle or the pills.

At trial, Mr. McKiver confessed to taking the bottle, but testified that he
could not recall how many pills were in it because he was high at the time. Mr.
Sneed testified that he had only taken out six to eight pills, meaning that there
would have been over 100 pills remaining in the bottle. 3 In October 2009, the 1ria1

2

I agreeMr. McK.ivc:r
has not made the required showing to overcomehis procedurally
defaulted claim that he sufferedineffectiveassistanceof counsel when Mr. Lambertifailedto
investigate Mr. Sneed'scriminal history.
3

The govanment never offered any evidence to the contrary and so its theory therefore appears
to be that Mr. McKiver ingested over 100 oxycodonepills in a 48-hour period and somehow
survived. The majority opinion says Mr. McKivernever claimed that he consumed whatever
pills soon after acquiring1hcm,but it overlooksthe record in this regard.Maj. Op. at 18. SeeR.
Doc. 1 at 6-7 ("McKiver consumedall of the pills he took from Sneed's house that day in a
forty-eighthour period. That there were few pills in the bottle is consistentwith McKiver's

29

A29

USCA11 Case: 18-14857

Date Filed: 03125/2021 Page: 30 of 39

jury found Mr. McK.iverguilty of1rafticking more than 28 grams but less than 30

kilograms of oxycodone. As a result, Mr. McKiver is now serving the 25-year
tenn of imprisonmentrequired by Florida's trafficking statute.
In 2012, Mr. McKiver filed a pro se motion for post-conviction relief in the

state trial court. Mr. McKiver argued, in relevant part, that he suffered ineffective
assistance of counsel because his attorney, Mr. Lamberti, failed to interview
witnesses who would have testified that Mr. Sneed sold his prescription opioids
and that bis wife, Mrs. Claudia Sneed, also took his drugs. This would have, of
course, lessened the number of pills in the bottle at the time Mr. McKiver took it.

The state trial court held an evidentiaryhearing which revealed important
facts. First, Mr. McKiver provided Mr. Lamberti with the names ofat least five
wi1nesses who would have testified to Mr. Sneed's illegal drug activity: Daniel

Pulkinan, Tyrone Thomas, Tracy Gates, Corey Denny, and Rodney Jones. Mr.
McKiver further testified that two of them would have testified that Mr. Sneed sold
oxycodone pills during the 48 hours between the time Sneed filled his prescription
and the time McKiver stole the bottle of oxycodone. Second, Mr. Lamberti did not
attempt to contact any of the witnesses Mr. McKiver indicated had exculpatory
information. And finally, Mr. Lamberti's notes from his pre-trialconversations

statement that all of the pills were consumed by him in a two day period because one hundred
twelve pills of percacet in a two day period would have been lethal.") Mr. McKiver so stated
under penalty of perjury,
30

A30

USCA11 Case: 18-14857

Date Filed: 03/25/2021

Page: 31 of 39

with Mr. McKiver indicate that McKiver told him he didn't know how many pills

were in the bottle when he stole it.
The majority opinion correctlypoints out that Mr. Lamberti testified that Mr.
McKiver told him the oxycodone bottle was almost full when McKiver took it
Maj. Op. at 6. But Mr. Lamberti's self-serving testimony was undermined by two
other pieces of evidence. First, Mr. McKiver testified that when he referred to a

full bottle of pills, he was talking about the other drugs he had taken from Mr.
Sneed's home (and which he subsequently pied guilty to stealing) and that he
always said there were very few pills remaining in the oxycodone bottle. Second,
Mr. Lamberti's own notes indicate that Mr. McKiver told him he could not

remember how many pills were in the bottle. We also know that when the state

1rialcourt heard this conflicting evidence it foundthat Mr. Lamberti' s decision to
not even try to contact the potential witnesses "cannot be attributed to strategic

decision." This seems to be a perfectly reasonable finding based on my read of the
evidence.
The state trial court found Mr. Lamberti's performance to be constitutionally

deficient because he failed to investigate or interviewany of the witnesses Mr.
McK.ivernamed. And it found that Mr. McK.iverdemonstrated prejudice because
the "narrow issue at trial was the issue of quantity of drugs contained in the bottle"
and the witnesses McKiver identified ''would have challenged the testimony of
31

A31

USCA11 Case: 18•14857

Date Filed: 03~5/2021

Page: 32 of 39

State's wi1nessesand provided reasonable doubt as to the quantity for trafficking,"
On appeal, the Florida Fifth District Court of Appeal vacated the state

postconviction court's decision in a one-sentence order simply saying that Mr.
McKiver "failed to meet hiBburden of establishing either prong under Strickland."
The state appellate court provided no analysis whatsoever.
In 2015, Mr. McKiver filed a habeas petition in the District Court, seeking to
have his conviction vacated because he did not receive effective assistance of
counsel. Mr. McKiver again argued Mr. Lamberti was deficient because he failed
to interview or call the witnesses with knowledge of Mr. Sneed's illegal drug
activity. Mr. McKiver provided the District Court with affidavits from the
witnesses he says Mr. Lamberti should have called. Three of those witnesses
swore they had personal knowledge that Mr. Sneed sold prescription drugs in the
time between filling his prescription and Mr. McKiver stealing the oxycodone
bottle. All four said they were available to testify during the trial and would have
done so if someone bed only asked.

In 2018, the District Court denied the petition. The District Court found
that, even if the jury had heard the evidence about Mr. Sneed's drug activity, they

still could have found that Mr. McK.ivertook the minimum.number of pills to
sustain his trafficking charge.

n..
32

A32

USCA11 Case: 18-14857

Date Filed: 03!..25/2021 Page: 33 of 39

Upon reviewing a habeas claim previously adjudicated on the merits in state
court, federal courts may grant relief only whenthe state court's decision ''resulted
in a decision that was contrary to, or involved an umeasonable application of,

clearly established.Federal law" or ''was based on an unreasonable determination
of the facts in light of the evidence presented in the State court proceeding." 28
U.S.C. § 2254(dXI)-(2). But the state court's factual findings are ''presumed to be

correct,"and can only be overcomeby "clear and convincingevidence." 28
U.S.C. § 2254(eXl).

Mr. McK.iver argues the state appellate court unreasonably applied
Strickland to the facts of his case. Strickland provides that a crimjnal defendant
has been deprived of their Sixth Amendment right to counsel when: (I) counsel's

performance was deficient, meaning their actions were not sound trial strategy and
(2) counsel's deficiency prejudiced the defense, IJ1eaningthere is a reasonable
probability that but for the deficiency, the result of the proceeding would have
been different. King v. Strickland, 748 F.2d 1462, 1463 (11th Cir. 1984);
Strickland, 466 U.S. at 687,689, 693-94, 104 S. Ct. at 2064, 2065, 2068.
"Reasonable probability' is not a stringent standard. It means only a "probability
sufficient to undermine confidence in the outcome." IYng, 748 F.2d at 1463
(quotation marks omitted). It is less than a preponderance of the evidence.

~

v. SinBletmy~12 F.3d 1012, 1018 (11th Cir. 1994). Because the state appellate
33

A33

USCA11 Case: 18-14857

Date Filed: 03/25/2021

Page: 34 of 39

court ruled that Mr. McKiver failed to establish "either prong under Strickland/' I
examine each in turn.
Mr. Lamberti's failure to interview the witnesses Mr. McKiver identified

was deficient because it could not have been sound trial strategy. At the
evidentiary hearing before the state trial court, Mr. Lamberti said he did not seek
out these witnesses because Mr. McKiver told him he had ingested the whole

bottle of pills and because he did not think the witnesses would admit, on the stand,

to illegally purchasing opioids. But we know that Mr. McKiver clarified that when
he referred to a full bottle of pills, he was talking about drugs other than the
oxycodone that he had taken from Mr. Sneed's home. And Mr. McKiver always
maintained there were very few pills remaining in the oxycodone bottle when he
took them. Mr. Lamberti admittedMr. McKiver told him he did not know exactly
how many pills were in the bottle at the time, and this fact is also reflected in
Lamberti's notes. Thus, even ifwe credit Mr. Lamberti's statement that Mr.
McKiver said he ingested the whole bottle, this should not have ended Lamberti 's
inquiry.

Florida does not appear to dispute that Mr. Lamberti's decision not to
interview the witnesses was deficient. Instead, the state argues that Mr. McK.iver
failed to establish, before the state court, that the witnesses existed and that they
were willing and available to testify during his criminal trial. By this argument,
34

A34

USCA 11 Case: 18-14857

Date Filed: 03125/2021

Page: 35 of 39

Florida appearsto question Mr. McKiver's credibility. However, the state court

found to the contrary that Mr. McKiver

l!!§.

credible. 4 In finding that the

witnesses Mr. McKiver identified "would have challenged the testimony of State's
witnesses and provided reasonable doubt as to 1he quantity for trafficking," the

state trial court credimd Mr. McKiver's testimony that these witnesses existed and
that they were available and willing to testify at 1hetime of the trial. This finding

appears to have been adoptedby the state appellate court. Florida's only argument
as to why McKiver's testimony should not be credited on this point is that it was
"self-serving." But this is far from the "clear and convincing" evidence necessary

to overcome the state court's factual finding.

See28 U.S.C.

§ 2254(eXl).

5

The majority opinion takes the position that we may not look to the decision
made by the state postconviction court who hemd Mr. McKiver's postconviction

4

The majority says the state postconviction court relied on Mr. McKiver's trial counsel's
testimony, and not MclC.ivcr's
testimony, in finding that a new trial was warrantedbased on
deficientperformanceby trial counsel. Maj. Op. at 18. Not so. The state postconvictioncourt
expresslyrecountedMr. McK.iver's testimonythat he had discussed the case with his trial
counsel and told him that Mr. Sneed sold pills on the day of the incident,~ well as advising him
of the names of witnesses who could demonstrate that Sneed sold drugs. The state court's
conclusionthat the trial counsel'sperformancewasdeficient.because"witnessesmay have
provided" a "Je830nabledefense to the charges [by] mut[ing] the amount alleaed by the State,,.
necessarilyrelies on this testimony from Mr. McKivcr. The majority also says the state
postconvictioncourtmadeno credibility finding. Maj. Op. at 18. But it is difficultto imagine
how or why the postconvictioncourt found in Mr. McKivcr's mvor if it did not credit his
testimony,
5 Of

course,the fact thatMr. McKiver was eventuallyable to provide affidavitsfrom the
witnesses he identified only bolsters the state trial court's finding that Mr. McKiver's testimony
was credible.

35

A35

USCA11 Case: 18-14857

Date Filed: 03/25/2021

Page: 36 of 39

claims. In support of this position, the majority relies on cases in which this Court
vacat.edits own panel decision or recogniz.edgenerally that a vacation of a
judgment by a federalappellate court divests the lower court's earlier judgment of
its binding effect. Maj. Op. at 17.
The majority's reliance on those cases doesn't work here, however, because
we look to Florida law to determine what (if any) aspects of a Florida state court
decision survives state appellate review. This question is not simply resolved by
asking whether the state postconviction court's judgment was vacated, but instead,
on what grounds. And, under Florida law, a postconviction court's factual findings
are deferred t.o as long as they "are supported by competent, substantial evidence,"
whereas legal conclusions are reviewed de novo. Brown v. State, 304 So.3d 243,
257 (Fla. 2020). I do not look to the postconviction court's legal conclusions here.
I look only to its findings of fact. Given that this state appellate court offered no
analysis of the postconviction court's factual findings, I don't think it proper to
presume that it had "substitute[d] its judgment for that of the trial court on
questions offact," especially in the face of conflicting testimony. Lowe v. State, 2
So. 3d. 21, 29-30 (Fla. 2008) (quotation marks omitted).
Notably, the Florida Supreme Court has made clear that it is especially
reluctant to displace the postconviction court's findings as to ''the credibility of the

36

A36

USCA 11 Case: 18-14857

Date Filed: 031.251..2021 Page: 37 of 39

witnesses as well as the weight to be given the evidence." Id. at 30 (quotation
marks omitted).
Furthermore, Mr. McKiverwas prejudiced by Mr. Lamberti's deficiency
because testimony regarding Mr. Sneed's illegal drug activity would have cast
doubt on the only faclual dispute at trial. That dispute, of course, goes to the
number of pills in the bottle at the time Mr. McKiver stole it. The only evidence

that there was a sufficient number of pills in the bottle to support Mr. McKiver's
trafficking chargewas Mr. Sneed's testimony that only six to eight pills had been
removed from the bottle. Testimony :from wi1nesses (saying they had bought
oxycodone pills fi:omMr. Sneed in the past and that they had participated in or
witnessed drug transactions with Sneed in the time between when he filled his
prescription and whenMr. McK.iver stole the bottle) would have cast doubt on
Florida's contention that the bottle still had at least 53 pills in it by the time
McKiver took it.
The majority reasons that the state appellate court's ruling that Mr. McKiver
.was not prejudiced could not be unreasonable.

This is so, according to the

majority, because even if all that testimony had been admitted, and even if the jury
believed that Mr. Sneed did sell a number of pills from that bottle, the jury could
still believe that at least 53 pills remained. Maj. Op. at 16. But this argument
improperly places the burden on Mr. McK.iver to prove that he did not meet the
37

A37

USCA 11 Case: 18-14857

Date Filed: 03/25/2021

Page: 38 of 39

trafficking amount. It is Florida's burden to prove, beyond a reasonable doubt, that
Mr. McKiver took at least 53 pills and not one fewer. See In re Winship. 397 U.S.
358, 363, 90 S. Ct. 1068, 1072 (1970) (the government must prove ''beyond a
reasonable doubt the existence of every fact necessary to constitute the crime
charged") (quotation marks omitted). And the prosecution sought to cany its

burden here based entirely on circumstantial evidence. Based on the limited
evidence heard by the jury, it had no evidentiary basis for believing that Mr. Sneed
would have done anything with the pills but take them himself. Had the jury been
presented with evidence that Mr. Sneed was a drug dealer and that he sold pills
from the very bottle Mr. McKiver stole, I think they would be hard pressed to find,
beyond a reasonable doubt that any specific number of pills were left in the bottle.
Once Mr. McKiver introduced evidence that several people knew some
unspecified number of pills had been taken from the bottle, he would have
established that no one knew for certain how many remained. It was Florida's
burden to show it was all but certain that Mr. McKiver took at least S3 pills. Had
the witnesses Mr. McK.iveridentified testified, I am not convinced Florida could
have carried its burden. I certainly think that Mr. McKiver has raised a
"reasonable •.. probability sufficient to undermine confidence in the outcome."

Kins,748 F .2d at 1463 (quotation marks omitted).

Therefore, the state appellate

court's decision improperly placed the burden on Mr. McK.iverto prove he was
38

A38

USCA11 Case: 18-14857

Date Filed: 03J'25J'2021 Page: 39 of 39

innocent. This was an objectively unreasonable application of Strickland, which

entitles Mr. McKiver to relief
This record demonstrates that Mr. McKiver was deprived of his right to
effective assistance counsel by Mr. Lamberti's deficient perfonnance. On ibis
reco~ the Florida appellate court's decision to the contrary wu objectively

1.D1reasonable.
I respectfully dissent.

39

A39

USCA11 Case: 18-14857

Date Filed: 03/25/2021

Page: 1 of 1

UNITEDSTATESCOURTOFAPPEALS
FOR THE ELEVENTH CIRCUIT
ll!JIIIT PAU. TU'ITLI! cot1T

CllFAPPBALSIIUIWING

SdPcnJllS-,N.W.
Al!Mt,~•JIIJIB
DlvldJ. Smith

Forrulcl ...i-mit
rnral
J 1mm,D11
e

Clerktlc.t

March25, 2021

MEMORANDUMTO COUNSEL ORPAR.'11BS
Appeal Number. 18-14857-HH
Case Style: Luther McKiver v. Secretary, Florida Depllltment, et al
District Court Docket No: S:15-cv--00354-WTH-PRL
Thill Court requlnl all eoun1el to file documenu electroaleally uing the Electronle Cue Flies (''ECF")
system, unless eumpted for good eau1e, Noa-incarcerated prose parties are permitted to ue the ECF'
ll)'Stemby registerinc for an aceouut at www.pacer.p. Information and tninlng materials related to
electronie fWng. are available at www.call.ueourtl.gov.
Enclosed is a copy of the court's decisionfiled today
in this appeal. Judgment has this day been entered pursumt to FRAP 36. The court'smandate will issue at a later
date in accordancewith FRAP 4 l(b).
The time for filing a petition for rehearing is governedby 11thCir. R. 40-3, and the tilne for filing a petition for
rehearing en bane is governed by 11th Cir. R. 35-2. Except as otherwise providedby FRAP2S(a) for inmate
filings, a petition for rehearing or for rehearing en bane is timely only if received io lhe elerk'soffice within the
time specffiedin the rules. Costs are governedby FRAP 39 and 11th Cir.R. 39-1. The timing, format, and content
of a motion for attorney's fees and an objectionthereto is governedby 11thCir. R. 39-2 and 39-3.
Please note that a petition for rehearing en bane:must include in the Certificate of InterestedPersons a complete list
of all personsand entities listed on all certificatespreviously filedby any party in the appeal.See 11thCir. R. 26.11. In addition, a copy of the opinion soughtto be reheard must be included in anypetition for rehearing or petition
for rehearingen bane.~ 11th Cir. R. 35-S(k)and 40-1 .

Counselappoinn,d under tb.1:1
Criminal Justice Act (CJA) must submit a voucher claiming compensationfor time
spent on the appeal no later than 60 days after ei1herissuance of mandate or filing with lhe U.S. Supreme Court of
a petitionfor writ of certiorari(whicheveris later)via the eVoucher system. Please cootactthe CJA Team at (404)
335-6167or cja_evoucher@call.usoourts.govfor questions regarding CJA vou.chcn or the eVoucbersystem.
For questionsconcerning the issuanceof the decision of this court.please call the number referenced in the
signatureblock below. For all other questions.please call Christm,herBergem.islHH at 404-335-6169.
Sincerely,
DAVID J. SMITII, Clem of Court
Reply to: Djuanna H. Cbut
Phone#: 404-335-6151

OPIN-1Ntc oflssuanceof Opinion

A40

USCA11 Case: 18·14857

Date Filed: 05126~021

Page: 1 cf 1

UNITED STATES COURT OF' APPE~
FOR THE ELEVENTH CIRCUIT
JILBmt.T
PARI.IUl"l'LBOOUI.TQF
Al'l'BALSBUILDINO
,6POll)'d!Stnld,N.W.
Atllllll,Oap!Qm

Forralraabme

Dmd 1. Smidl
CllltofCaurt

vilit
WW: q11.tmlUlts.gpy

May26,2021

MEMORANDUMTO COUNSEL OR PAR.TIES
Appeal Number: 18-148S7~HH
Case Style: LutherMcK.iw:rv. Secretary,Florida Depar1mmn,et al

DistrictCourtDocketNo: S:1S-cv-00354-WTH-PRL
The enclosed order hasbeenentered on petition(s) for reharing.
~ Rule

41, Federal Rules of Appellate Procedure, and Eleventh Circuit Rule 41-1 for

informationregarding issuanceand stay of mandate.
Sincerely,
DAVID J. SMITH,Clerk of Court
Reply to: Christopher
Bergquist, HH/lt
Phone#: 404-335-6169
REHG-1 Ltr Order Petition Rehearing

A41

USCA11 Case: 18-14857

Date Filed: 05/26/2021

Page: 1 of 1

IN TIIE UNITED STATES COURT OF APPEALS
FOR TIJE ELEVENTHCIRCUIT
No. 18-14857•IIll

LUTHER MCKIVER,
Petitioner- Appellant,
versus

SECRETARY,FLORIDADEPARTMENTOF CORRECTIONS,
ATTORNEY GENERAL,STATE OF FLORIDA,
Respondents - Appellees.

Appeal from the United States District Court
for the MiddleDistrict of Florida
ON PETITION(S)FOR REHEARINGANDPETITION(S)FOR REHEARING EN BANC
BEFORE: MARTIN,LUCK, and BRASHER,Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED~ no judge in regular active service on the Court
having requested that the Court be polled on rehearing en bane. (FRAP 35) The Petition for
Panel Rehearing is also denied. (FRAP 40)

ORD-46

A42

Case 5:15-cv-00354-WTH-PRL Document 47 Filed 10/22/18 Page 1 of 25 PagelD 1524

UNITED STATES DISTRICTCOURT
MIDDLE DISTRICTOF FLORIDA
OCALA DMSION
LUTHERMCKIVER,
Petitioner,

v.

Case No. 5:15-cv-354-0c:~1
OPRL

SECRETARY,DEPT.OF
CORRECTIONS,et al.,
Reapondenta.

-----------'
ORDER
Petitioner, a state prisoner, Initiated this case by filing a pro se Petition for
Writ of HabeasCorpus pursuantto 28 U.S.C. § 2254. (Doc. 1.) Respondentsfiled
a Response and appendices, seeking denial of the Petition. (Docs. 8, 10, 11.)

Petitioner, through counsel, filed a Reply and expanded record. (Docs. 43, 46.)
Because the Court may resolve the Petition on the basis of the record, an

evidentlary hearing is not warranted.

See Habeas Rule 8(a). The Petition is

denied.
Procedural Background

In October 2009, Petitionerpleaded guilty to two counts of burglary and one
count of grand theft; he proceededto trial on one count of trafficking in·oxycodone.
(Respondents'Appendix, Doc. 10, Exh. A, pp. 59-60.) (hereafter •Exh_.) A Citrus
County jury found Petitioner guilty of trafficking more than 28 grams but less than

1

A43

case 5:15-cv-00354-WTH-PRL Document 47 Filed 10/22/18 Page 2 of 25 PagelD 1525

30 kilograms of oxycodone.

CW Petitioner was sentenced on November23,

2009, to a 25-year mandatory minimum term of imprisonment for trafficking
oxycodone. He received a concurrent91.2 month prison sentencefor the charges
to which he pleaded guilty. (Exh. A, pp. 82-106.)
The offenses occurred in December 2008, when Petitioner's neighbor
reported that someone had broken into his home and had stolen bottles of
prescriptionpills. One of the bottles containedapproximately112-114oxycodone
pills, having been filled with 120 pllls approximatelytwo days prior. (Exhs. A, B.)
The pills were never recovered,but Petitioner admittedto taking the bottle of pills
(althoughhe did not know how many were in the bottle). (.lgJ
Petitioner'sconvictionand sentencewere affirmedby the Fifth DistrictCourt
of Appeal, per curiam without written opinion, on October 19, 2010. (Exh. E);

McKiverv. State, 49 So.3d 765 (Fla. 5th DCA 2010).
On September 12, 2011, Petitionerfiled a motion to correct illegal sentence
pursuant to Rule 3.800 of the Florida Rules of Criminal Procedure. (Exh. I.) He
challenged the constitutionalityof the Florida drug statute, Fla. Stat. § 893.135.
(!gJ The motion was summarily denied and per curiam affirmed without written

opinion by the Fifth District Court of Appeal. (Exhs. J, N.)
On March 20, 2012, Petitionerfiled a prose motionfor post-convictionrelief
pursuant to Rule 3.850 of the Florida Rules of Crimlnal Procedure. (Exh. R; pp.
130-50.) Of Petitioner's six grounds for relief, the trial court summarily denied

2

A44

Case 5:15-cv-00354-WTH-PRL Document 47 Filed 10/22118 Page 3 of 25 PagetD 1526

Grounds 1 and 4 but held an evidentiary hearing on the remaining grounds on
January 14, 2013. (Exh. R, pp. 1-129.) Wltneases atthe hearing were trial counsel,
Petitioner, and the Assistant State Attorney who prosecuted. On January 23,
2013, the trial court granted Petitioner's Rule 3.850 motion as to Grounds2 and 3,
vacating Petitioner's judgment and sentence and ordering a new trial. 1 (Exh. R,
pp. 353-54.) Grounds 2 and 3 centered on trial counsel's failure to investigate or

otherwise present evidence that the victim engagedin illegal drug activities by
selling and trading his prescription pills.
The State appealed,and on December 6, 2013, the Fifth District Court of
Appeal reversed the trial court's order and reinstated Petitioner's judgment and
sentence, finding that Petitioner had failed to meet his burden of establishingeither
deficient performance or prejudice under Strickland.
(Exh. U); State y. McKiyar,
128 So.3d 197 (Fla. 5th DCA 2013).
Petitioner moved for a belated appeal of the denial of his Rule 3.850 motion,
which the Fifth Dlsbict Court of Appeal granted on September 19, 2014, directing
that its order •be treatedas the notice of appeal from the trial court's January 8,
2013 order denying postconvictlon relief.u (Exh. W.) In his initial brief in this
belated appeal, he arguedthat his claims regarding
misadvice as to the plea offer
and cumulative error, which were found moot In the trial court's January 23, 2013

1 The

trial court found Grounds5 (misadvloeregardingplea oll'er) and 6 (cumulativeerror) moot
based on its grant of relief as to Grounds 2 and 3.

3

A45

Case 5:15-cv-00354-WTH-PRL Document 47 Filed 10/22/18 Page 4 of 25 PagelD 1527

order, should be remanded for a decision on the merits. (Exh. X.) The Fifth District
Court of Appeal affirmed, per curiamand without written opinion, on December2,
2014. (Exh. Y); McKiver v. State. 165 So.3d 364 (Fla. 5th DCA 2014).
Petitioner then filed a second Rule 3.800 motion on January 8, 2015, arguing
again that Fla. Stat. § 893.135 was facially unconstitutional; and that the costs for
the prosecution and defense were illegally imposed. (Exh. EE.) The trial court
granted as to the costs issues, and an amended costs order was entered April 7,
2015. (Exh. KK.)
Petitioner filed the present, timely,§ 2254 petition on July 14, 2015, raising
12 claims. (Doc. 1.) Respondents contend that Ground 2 is unexhausted,
procedurally barred,and precluded from federal review;and that the remaining
grounds, though exhausted, are without merit. (Doc. 8.)

Through counsel,

Petitioner has filed a Reply. (Doc. 43.)

Exhaustionand ProceduralDefault
There are two prerequisitesto federal habeas review: (1) "the applicant must
have fairly apprised the highest court of his state with the appropriate Jurisdiction
of the federal rights which allegedly were violated,• and (2) "the applicant must

have presented his claims in state court in a procedurally correct manner."2 This
meansthat "a state prisoner seekingfederal habeas corpus relief, who fails to raise

2

Upshaw v. Singletary. 70 F.3d 576, 578-79 (11th Cir. 1995) (citations omitted).

4

A46

Case 5:15-cv-00354-WTI-I-PRL Document 47

Filed 10/22/18 Page 5 of 25 PagelD 1528

his federal constitution(aJ]claim In state court, or who attempts to raise It in a
manner not permitted by state procedural Nies is barred from pursuingthe same

claim In federal court absent a showing of cause for and actual prejudicefrom the
default.•3
Ineffective Assla1anceof Counsel

State court rulings on ineffective assistance of counsel claims are governed
by Strickland v, Washington,468 U.S. 688 (1984). •1neffect1ve
asaistanceunder
Strickland is deficient performance by counsel resulting in prejudice . • . with
performance being measured against an 'objective standard of reasonableness'
Rompllta v. Beard, 545 U.S. 374, 380

under 'prevaHingprofessional norms.'•

(2005) (quoting Strickland, 466 U.S. at 888) (intemal citations omitted).

Discussion

A. Exhaustion
Respondents argue, and Petitioner concedes, that Ground 2 was not
exhausted in the state courts. (Docs. 8, 43.) In Ground 2, Petitionerargues that
trial counsel was constitutionally ineffective for failing to investigate the criminal
history of the victim; had trial counsel done so, he would have learned that the
victim had prior felony convictions, including for the sale and delivery of caMSbia.
(Doc. 1, pp. 14-18.appendix.) Petitionerargu• that the only evidencesupporting

3

Alderman
v. Zant.22 F.3d 1541, 1549 (11th Cir.) cert. denied, 513

Wainwright

v, Sykes, 433 U.S. 72, 87 (1977)).

5

A47

U.S. 1061 (1994) (citing

Case 5:15-cv-00354-wrH-PRL

Document 47 Filed 10/22/18 Page 6 of 25 PagelD 1529

the quantity of pills stolen was the victim's testimony, and this criminal background
information would have pennitted him to attack the victim's credibility. (lgJ
In Martinez

v. Ryan, 566 U.S. 1 (2012), the Supreme Court held that

•[w]here, under state law, claims of ineffective assistanceof trial counsel must be
raised in an initial-reviewcollateral proceeding,a proceduraldefault will not bar a
federal habeas court from hearing a substantial claim of ineffective assistance at
trial if, in the initial-reviewcollateral proceeding, there was no counsel or counsel
in that proceedingwas ineffective." Martinez,
568 U.S. at 17. Florida's Rule 3.850
proceedingsconstitute inttlal-reviewcollateral proceedings.
Petitionerfiled his Rule 3.850 motion pro se but was later appointed counsel
to represent him at the evidentiary hearing. Petitioneralleges that post-conviction
counsel filed a "written demand .. for the State to provide criminal records for the
&

allegedvictim" but did not inform the Petitionerof that demand or further present

any evidence regarding the victim's criminal history. (Doc. 43, pp. 2-3; Exh. NN,
pp. 7-10.) Petitionerdid not leam of the victim's criminal history until years later,
in 2015, when a friend performed an online background check on the victim and
provided a copy to Petitioner. (Doc. 1, Appendix.)
Because Petitioner filed his motion pro se and was later represented by
counsel, Martinez applies. Ineffective assistance of counsel in PetiUoner'sRule
3.850 proceedingsmay be raised as cause and prejudiceexcusingthe procedural
default. The issue is, then, whether the claim is ·substantial" so as to merit

6

A48

Case 5:15-cv-0035,4.WTH-PRL Document 4 7 Filed 10/22/18 Page 7 of 25 PagelD 1530

consideration under Martinez. To show that his claim is "substantial• (I.e., •some

merit"aa explmned in Martinez), Petitioner must also demonstrate prejudicewithin
the meaning of Strickland. Whether Petitioner's Ground 2 is •substantial• so aa to
Invoke the Martinez exception to the proceduraJ default doctrine is discussed in

detail below.
B. Petitioner's Claims

Ground• 1, 2, 3: Failureto lnvastlgateand call wltn8Ne■ to tNtify about the
victim's alleged drug activity; failure to invedgate the
victim's crimlnal history
In Grounds 1 and 3, Petitioner alleges that trial counsel was constitutionally
deficient for failing to interview or call to testify

at trial witnesses who would testify

that near the time of the underlying crime. they witnessed the victim parttcrpatein
drug activity at his home. (Doc. 1.)
The only disputed issue at trial wasthe quantity of pills Petitioner took; his
conviction for trafficking (more than 28 grams) carried a 25--year mandatory
mlnJmum prison sentence. The stolen pills were never recovered, and Petitioner
testified that he was high at the time of the burglary and could not recall how many

pills were in the bottle.

The victim testified that there would have been

approximately 112-114 pills In the bottle when it was stolen on or around
December 7, 2008.

The pharmacist for the victim testified that he filled a

prescription for 120 oxycodone pills for the victim on December 5, 2008. The
pharmacist also testified (and the parties stipulated) that each oxycodone tablet

7

A49

Case 5:15-cv-00354-WTH-PRL Document 47 Filed 10/22/18 Page 8 of 25 PagelD 1531

weighed .53 grams. One-hundredpills would weigh 53 grams; and 52.8 pills would
equal 28 grams (the minimum to support a trafficking conviction). (Exh. B, pp. 53-

60; 79-87.)
In his prose Rule 3.850 motion, Petitioner argued that trial counsel could
have called available witnesses Rodney Jones. Corey Denny, and Tracy Gates,
who could have testified that they had personal knowledge of the victims' Illegal
drug trading and selling. Further, these witnesses were available and would have
testified that they had witnessed the victim's wife surreptitiously take the victim's
oxycodone pills on various occasions, and that she had unlimited access to the
prescription bottles.

Petitioner also argued that trial counsel should have

interviewed and called the victim's wife to testify. (Exh. R, pp. 166-168.) No
evidence was presenteddirectly from these potential witnesses at the evidentiary
hearing-Petitioner's

counsel in the Reply asserts that Petitioner's testimony

regarding the witnesses was unrefuted. (Doc. 43 1 p. 10.) Petitioner has attached
affidavits from some of these potential witnesses to his petition (Doc. 1, Exh. D, E,
F, dated December 19, 2014) and submitted updated affidavits from 2015 directly
to the Court. (Docs. 20-22.)
In granting Grounds 1 and 24 on post-convictionreview, the trial court wrote:
After hearing testimonyand argument of the parties, it is the finding of
this Court that trial counsel's acts fell outside the broad range of
reasonably competent performance under prevailing professional
standards.
Mr. Lamberti [trial counsel] testified that although
4

Thesewere presentedas Grounds2 and 3 to the trial court.

8

ASO

Case 5:15-cv-00354-WTH-PRL

Document 4 7 Filed 10/22/18 Page 9 of 25 PagelD 1532

Defendant provided the names of witnesses and their expected
testimony he did not investigate or interview the witnesses or seek
continuance to Investigate. Mr. L.amberti's reasoning for not
investigatingwaa that it would have been pointless as Defendanthad
told him the bottle was almost full. However, the Defendant also
advised Mr. Lamberti that he was "wasted•and did not know how
many pills were in the oxycodone bottle as there were 3 different
prescriptronsstolen. This decision cannot be attributed to strategic
decision. Under the circumstances the amount of pills contaJnedin
the bottle was not determined because the bottle was not recovered.
Circumstantial evidence was presented through testimony from the
victim and the pharmacist that filled the prescription. Therefore, a
reasonable defense to the charges wasto refute the amount alleged
by the State, which the witnesses may have provided.
Moreover, Defendant has demonstratedthat he was prejudicedby the
deficiency. The narrow issue at trlal was the issue of quantity of drugs
contained in the boWetaken by Defendant. The testimony at trial was
provided by the alleged Victim and pharmacist with a gap of one or
two days wherein neither witness observed the contents of the bottle
at the time it was stolen. Therefore, neither witness could confirm the
exact contents of the bottle. The witnesses contemplated by
Defendantwould have challenged the testimony of state's witnesses
and provided reasonabledoubt as to the quantityfor trafficking. There
la a reasonable probability that the result of Defendant's trial would
have been different but for counsel's failure to bring this Information
to the jury's attention. Accordingly, this Court finds Defendant is
entitled to a new trial based on trial counsel's deficient performance.
{Exh. R, pp. 353-54.) In reversing the triaJ court's ruling, the Fifth District Court of
Appeal did not comment on any specific factual or credibility findings of the trial
court, but concluded that Petitioner "failedto meet his burden of establishingeither
prong under Strickland... • (Exh. U.)
Petitioner's Ground 2, asserting that trial counsel constitutionallyineffective
for failing to investigate the victim's criminal background, which included felony
drug convictions, was unexhausted but may be subject to review under Martinez.
9

A51

Case 5:15-cv-00354-WTH-PRL Document 47 Filed 10/22/18 Page 10 of 25 PagelD 1533

Taken together, Grounds 1-3 of the present petition go to the failure of trial
counsel to attack the credibility of the victim's testimony, and since this testimony
·was the sole source of proof that a trafficking amount of oxycodone was taken
and the only evidence that would support a 26-year minimum mandatorysentence·
or to adequately present a defense to the quantity charged. (Doc. 43, p. 4.) To
have prevailed on the merits of any of these three claims below, Petitioner must
have shown that (1) trial counsel was deficient, and (2) that but for counsel's
deficient performance, there is a reasonable probability that the jury would have
found that the quantity of oxycodone involved less than 28 grams. Strickland,466
U.S. at 694 ("The defendant must show that there is a reasonable probability that,
but for counsel's unprofessional errors, the result of the proceeding would have
been different. A reasonable probability is a probability sufficient to undermine
confidence ;n the outcome.•>
Petitioner has failed to demonstratethat the state appellate court's rejection
of these claims was contrary to, or an unreasonable application of Strickland. or
an unreasonabledetermination of the facts in light of the evidence adduced in state
court.5 The jury could have believed.beyond a reasonable doubt that Petitioner
took anywhere from 53 pills (the minimum to support a trafficking conviction) to
114 pills (the maximum number of pills that would have been in the bottle based

As to Ground2, Petitionerhas failed to demonstratethat the MartJnez
exceptionto the procedural
defaultdoctrineapplies, becausehe has not shownthat this ground is "substantial"
6

10

A52

Case 5:15-cv-00354-WTH-PRL

Document 47 Filed 10/22/18

Page 11 of 25 PagelD 1534

on the victim's testimony) and still rendered a guilty verdict as to trafficking
oxycodone. Stated another way, even If the jury believed 61 of the oxycodone pills
were Ingested, stolen by someone era&,sold, or traded prior to Petitioner taking

the bottle, the trafficking verdict would atiHstand. Accordingly, it would be purely
speculative

to conclude

that but for the introduction of evidence that the victim

engaged in illegal drug activity-especially

where the specific number of pills

removed prior lo the burglary was not contemplated in that testimony-the

jury

would have concluded that Petitioner look leas than 28 grams of oxycodone.
Petitioner's assertions are simply insufficient to undermine confidence in the
outcome of his trial. Grounds 1 and 3 are denied. Ground 2 is unexhausted and

not subject to the Martinez Droceduraldefault exception; even if it were, it is without
merit.

Ground 4: Fallure to object to admission of confeeeion
PetfUoneralleges that trfal counsel was conatitutfonafly deficient for failing to
object to the admission of his confession into evidence, because the state failed to
establish corpus deleclJ8prior to admitting the confession.

(Doc. 1, p. 21.)

Petitioner confessed to Detective David Gater that he was high on xanax and
broke Into the victim's residence and took the prescription bottles and later

11

Traditionalapplicationof the corpus delecti rule requiresthe state to ••at least show the
existenceof each elementof the crime' tc authorizethe introductionof a defendants'admissJon
or confession." State v. Colorado,
890 So. 2d 468, 470 (Fla. 2d DCA 2004).

11

A53

Case 5:15-cv-00354-WTH-PRL Document 47 Filed 10/22/18 Page 12 of 25 Page ID 1535

ingested the pills. In summarily rejecting this claim on post-convictionreview, the
trial court wrote:
In the instant case, trial counsel tlad no basis to object to admission
of Defendant'sstatements. The State provided sufficient predicateto
Introduce the statements. Detective David Gater testified that
Defendantwas advised of his Miranda
rights prior to questioningand
he knowingly waived his rights. Additionally, Defendant stipulated to
a certain factual basis In his plea to counts II, Ill and IV thus trial
counsel had no basis to object.
(Exh. R, pp. 314-315) (Internal citations omitted). As Respondents note, at the
time Detective Gater testified as to Petitioner's confession, the jury had already
heard testimony from the victim that he had filled his prescription, left the pills at
the house, someone broke in his home, and the pills were missing. (Doc. 8, p. 26.)
Petitioner has failed to demonstrate that the state court's rejection of this
claim was contrary to, or an unreasonable application of Strickland. or an
unreasonabledetermination of the facts in light of the evidence adducedin state
court. Ground 4 is without merit.

Ground5:

Stipulation to three of four elements of trafficking

Petitioner alleges Ineffectiveassistance of counsel for stipulating to three of
the four elements of his trafficking offense.7 (Doc. 1, pp. 26-27.) In rejecting this
claim on post-convictionreview, the trial court noted that •oefendant stipulated to

7

In Petitioner'scase, the trafficking offense requiredthe following elementsof proof: (1)
Petitionerknowinglypossesseda certain substance;(2) the substancewas oxycodoneor a
mixture containingoxycodone;(3) the oxycodoneor mixture containingoxycodonewas 28
grams or more; and, (4) Petitionerknew that the substancewas oxycodoneor a mixture
containingoxycodone. Fla. Stat. § 893.135(1)(c)(2008); E>ch.
A. pp. 64-65.

12

A54

Case 5:15-cv-00354-WTH-PRL Document 47 Filed 10/22/18 Page 13 of 25 PagelD 1536

a certain factual basis in his plea to [the burglary and grand theft charges] thus trial
counsel had no basis to object.• (Exh. R,

pp. 314-15.)

Prior to trlaJ on the trafficking charge, Petitioner had already (1) pleaded
guilty to burglary and grand theft, (2) and confessed to law enforcementthat he
had broken into the victim's residence, took presaiption bottles, and ingested pills.
The victim and his phannacist also testified as to the type and quantity of 1he
prescriptions. Even assuming Petitioner could demonstrate deficient perfonnance

by his trial counsel, he cannot show prejudice where there was substantial
evidence of the elements to which trial counsel stipulated.
Petitioner has falled to demonstrate that the state court's rejection of this
claim was contrary to, or an unreasonable application of Strickland. or an
unreasonable detennination of the facts in light of the evidence adduced in state
court. Ground 5 la without merit.

Ground 8: Failure to request Jury instruction on use of stipulation evidence
In Ground 8, Petitioner alleges that trial counsel was constitutionally
deficient for "failing to move the court to inatrud the jury if it had reasonable doubt
regarding the stipulated elements, it must find the Defendant not guilty." (Doc. 1,
p. 29.) In rejecting this ctalm on post-conviction review, the trial court found that
Petitioner ·has failedto demonstrate the jury Instructions contained errors and that
the 'stipulation instructions' would have led to a different outcome." (Exh. R, p.

315.)

13

Case 5:15-cv-00354-WTH-PRL

Document 47 Filed 10/22/18

Page 14 of 25 PagelD 1537

Petitioner does not provide any source of authority for his proposition that
such an instructionwould have been appropriate;the current Florida StandardJury
Instruction in Criminal Cases regarding stipulations does not recite the standard
he proposes. 8 As discussed above in Ground 5, Petitioner cannot show that he
was prejudiced by either the stipulations or the failure to request a special ju(Y
instruction.
Petitioner has failed to demonstrate that the state court's rejection of this
claim was contrary to, or an unreasonable application of

Strickland,or an

unreasonable determination of the facts in light of the evidence adduced in state
court. Ground 6 is without merit.

Ground 7: Mlsadvicaregardingplea offer
Petitioner alleges that trial counsel was constitutionallydeficient for advising
him to reject a 7-year plea offer by the State. (Doc. 1, p. 32.) Petitioner argues
that at the time of the 7-year offer, trial counsel advised Petitioner •that the victim's
illegal drug sells could be a mitigating factor at sentencing. This would result in a
reductions [sic] of the sentence-something less than 7 years. Based solely on
[trial counsel's] advice, McKiver rejected the state's plea offer.• (!gJ The 7-year
plea offer was preceded by a 10-year offer and followed by a 15-year offer, both

8

Florida Standard Jury Instructionsin Criminal Cases, 2.3 - Stipulations-was not adopted until
2013, after Petitioner'strial, but is still infonnative: •When [lawyers] [parties]agree that certain
facts are true. that is called a stipulation of fact. You must accept stipulatedfacts as having
been proven. However,the significanceof these facts, as with all facts, is for you to decide. In
this case, the stipulatedfact[s] that you must accept as true ps] [are] [insert stipulation[sJ].•

14

A56

Case 5:15-cv-00354-WTH-PRL Document 47 Filed 10/22/18 Page 15 of 25 PagelD 1538

of which Petitioner also rejected. Cid.)Trial counsel testified as to this claim during
the evidentiary hearing in Petitioner's Rule 3.850 proceedings. Becausethe trial
court granted Rule 3.850 relief on other grounds, It found this claim moot below.
The trial court did summarize the testimony in its order granting relief:
Finally, Mr. Lamberti was re-called to testify as to discussions
regarding plea offers. Mr. Lamberti testified that he discussed the
plea offer and substantial assistance agreement with the State
however based on Defendant's lack of truthfulness in his prior case
the State rejected a special assistanceagreement. Moreover, Mr.
Lamberti strongly advised Defendant to accept each offer due to the
impact of minimum mandatory sentence if he is convicted after trial.
Mr. Lamberti further testified that Defendant refused each offer.
(Exh. R, p. 352.)

Petitioner was granted a belated appeal in his Rule 3.850 proceedings,but
the Fifth District Court of Appeal's order characterized it as a belated appeal from
the trial court•s January 8, 2013 summa,y denial of Grounds 1 (fallure ID object to
admission of confession) and 4 (double jeopardy). (Exh. W.) Although Petitioner
argued that his daim regarding the plea offer should be remanded and heard on
the merits, the Fifth District Court of Appeal's decision was silent on this issue and
therefore it appears that this claim was not heard on the merits by the state court.

(Exh. X.) Respondentsagree. (Doc. 8, p. 30.)
Because this claim was not adjudicated on the merits by the state court, the
deference required by 28 U.S.C. § 2254(d) does not apply. •When the evidence
leads very clearfy to the conclusion that a federal claim was inadvertently
overlooked in state court, § 2254(d) entitles the prisoner to an unencumbered

15

A57

Case 5:15-cv-00354-WTH-PRL Document 47 Flied 10/22/18 Page 16 of 25 PagelD 1539

opportunity to make his case before a federal judge." Johnson v. Williams, 568
U.S. 289, 303 (2013). Where§ 2254(d) does not apply, the district court must
decide the Issuede novo. Rominev. Head, 253 F.3d 13491 1365 (11th Cir. 2001);
Berghuis v. Thompkins, 560 U.S. 370, 390 (2010) rcourts can, however, deny
writs of habeas corpus under § 2254 by engaging In de novo review when It Is
unclear whether AEDPA deference applies, because a habeas petitioner will not
be entitled to a writ of habeas corpus if his or her claim is rejected on de novo

review. Here,on de novo review,Petitionerhas failed to establisha constitutional
0

)

violation.
At the January 2013 evidentiary hearing in state court, Assistant State
AttorneyJulia Metts testified that she made three plea offers to Petitioner:7 years,
10 years, and 15 years, in that order. She testified that she •never"contemplated
a substantialassistance agreementwith Petitioner•(b]ecausehe lies,· gave false
testimonyin another criminal case, and was prosecutedfor perjury. A substantial
assistance agreement was never an option for Petitioner because Ms. Metts
11

actuallywatched [Petitioner]testify falsely in the other trial where he was charged

with perjury.• (Exh. R, pp. 79-82.)
TriaJcounsel Mr. Lambertialso testified at the evidentiaryhearing regarding
the plea offers made to Petitioner. Mr. Lamberti testified that he approached Ms.
Metts regarding what Petitioner could do to lower his sentence, and although

substantial assistance is often a possibility, Ms. Metts declined. Mr. Lamberti

16

A58

Case 5:15~cv~00354--WfH~PRLDocument 47 Filed 10/22/18 Page 17 of 25 PagelD 1540

testified that he and Petitioner"had a number of drscussionsabout the plea offers

In the cases· but that Petitioner•always believedthe State was bluffing in regard
to the [minimum mandatory] situation.• Mr. Lamberti further testified that he
'"strongly"advised Petitionerto accept each offer because Petitioner"was looking
at a 25-year minimum mandatoryin a traffickingcount, and anything betterthan a
25-year minimum mandatory, in my opinion, was a good result:

Petitioner

understoodif he went 1Dtrial, he faced a minimum25-year sentence.accordingto
Mr. Lamberti. Trial counsel could not recall if he advised Petitioner, when
conveyingthe 7-year offer, that Petitioner'stestimony against the victim could be
a mitigatingfactor at sentencing. Mr. Lambertitestified that towardsthe end of the
trial, Petitionertold him he wanted to take the 7-year plea offer. (Exh. R, pp. 85-

98.)
Petitioneralso testified at the avldentlary hearing, stating that he •rejected
the seven-year plea because (he] thought that giving information on Mr. Sneed's
drug - drug trading and selling, I could get a better offer." Petitionerstated that he
had a conversationwith trial counsel at the jail and Mr. Lambertitold him that if he
did Joseat trial1then the information on the victim1s alleged illegal drug activities
would be a mitigating factor at sentencing. Later, Mr. Lamberti correctly told
Petitioner that actually, if he lost at trial, he would get the 25-year mandatory
minimum. (Exh. R. p. 101.) Petitionertestified that the offers came in the order of
1Oyears, 7 years, and 15 years.
17

A59

Case 5:15-cv-00354-WTH-PRL Document 47 Filed 10/22/18 Page 18 of 25 PagelD 1541

Assuming, Bf'JU6ndo,that trial counsel was deficient, Petitioner must still
demonstratethat the Strickland prejudice prong. In Lafler
v. Cooper, 566 U.S. 158
(2012), the Supreme Court "clarlfled that the Sixth Amendment right to effective
counsel extends specifically •tothe negotiationand considerationof plea offers that
lapse or are rejected."' Osley v. United States, 751 F.3d 1214 (11th Cir. 2014)
(quoting In re Perez, 582 F.3d 30, 932 (11th Cir. 2012) (per curiam)). In order to
establish prejudice, the defendant must show a reasonable probabilitythat but for
counsel's ineffectiveness: (1) 11the plea offer would have presented to the court
(i.e., that the defendant would have acceptedthe plea and the prosecutionwould
not have withdrawn it in light of intervening circumstancesr; (2) "the court would

have accepted its terms"; and (3) •the conviction or sentence, or both, under the
offer's terms would have been less severe than under the judgment and sentence
that in fact were imposed." Lafler, 586 U.S. at 184
Petitioner has failed to satisfy the three-part test set forth in JJb[.

First,

Petitioner has failed to demonstrate that he would have accepted the plea offer.
According to his account of the plea offer progression, he first turned down a 10year plea offer (substantially less than the 25-year mandatory minimum); then
turned down a 7-year offer based on trial counsel's alleged misadvice; and later
turned down a 15-year offer. The final offer was made after trial counsel advised
Petitionerthat the 25-year mandatory minimum applied if he went to trial. It follows
then, that he had reasons for rejecting both the 1O and 15-year offers independent

18

A60

Case 5:15-cv-00354-WTH-PRL Document 47 Filed 10/22/18 Page 19 of 25 PagelD 1542

of any misadvicefrom trial counsel. Petitionerwas also obviously aware that the
State did not trust his testimony,since it was prosecutinghim for perjuryin another
case. This is consistent wfth trial counsel's notes (admitted Into evidence at the
evidentiary hearing)which state that •rPetitionerJknows perjury how impactscase."

(Doc. 46.) Petitionerhas failed to establish a reasonableprobability he would have
accepted the 7-year offer since both before and after that offer, he refused to
accept plea offers that proposed significantly lower sentences than the 25-year

mandatoryminimum. See Osley. 751 F.3d at 1223(finding no Strickland
prejudice
where trial counsel failed to advise defendant at all of applicable mandatory

minimum).
Nor has Petitionermet the remaining two prongs of the Lafler test. To find
that he has met either would depend upon mere speculation as to whether the
court would have acceptedthe pleaor that Petitioner'ssentencewould have been
less severe. See Missouriv. Frye, 586 U.S. 134, 148 (2012) ra defendanthas no
right to be offered a plea, nor a federal right that the judge accept it.•)
Petitionerhas failedto show Stricklandprejudicein connectionwith his claim
that he rejected a favorable plea offer based on trial counsel's misadvice. Ground
7 is without merit

Ground 8: Cumulative error
Petitioneralleges that the cumulative effect of trial counsel's errors resulted
in constitutionally ineffective assistance of counsel. (Doc. 1, p. 35.) The state

19

A61

Case 5:15-cv-00354-WTH-PRL Document 47 Filed 10/22118 Page 20 of 25 PagelD 1543

post-conviction court ruled this ground moot when it granted relief on other
grounds.

(Exh. R.) And, as discussed supra In Ground 7, there was no

adjudication on the merits by the state court as to this claim of cumulative error.
Upon de novo review of the claim, Petitioner has failedto establish a constitutional
violation.
The Eleventh Circuit Court of Appeals "address[es] claims of cumulative
error by first considering the validity of each claim individually, and then examining
any errors that we find in the aggregate and in light of the trial as whole to
determine whether the appellant was afforded a fundamentallyfair trial." Morris v.
Sec'v, Dept. of Corr., 677 F.3d 1117, 1132 (11th Cir. 2012) (citing United States v.
Calderon, 127 F.3d 1314, 1333 (11th Cir. 1997)). Where no individual claims of
error have merit, a cumulative error argument is without merit. Id.
Petitioner has not demonstrated any of his trial counsel's alleged errors,
considered alone, rose to the level of ineffective assistance. This ground is without
merit.

Ground 9:

DoubleJeopardy

Petitioner argues that his convictions for trafficking and grand theft violate
the Double Jeopardy Clause because he received multiple punishments for one
criminal act. (Doc. 1, pp. 37-38.) Petitioner raised this Issue in his prose brief on
direct appeal, and the Fifth District Court of Appeal affirmed per curiam without
written opinion. (Exhs. D, E.)

20

A62

Case 5:15-cv-00354-WTH-PRL

Document 47 Filed 10/22/18 Page 21 of 25 PagelD 1544

The state court's ruling is consistentwith federal law. aTheapplicablerule
is that, where the same act or transaction constitutes a violation of two distinct
statutory provisions, the test to be applled to determine where there are two
offenses or only one, is whether each provision requires proof of a fact which the
other does not ... 'A single act may be an offense against two statutes;and if each
statute requires proof of an additionalfact which the other does not, an acquittal
or conviction under either statute does not exempt the defendantfrom prosecution
and punishment under the other.,. Blockburger v.

UnitedStates, 284 U.S. 299,

304 (1932) (Internalcitations and quotationsomitted).
In Petitioner's case, the trafficking offense required the following elements
of proof: (1) Petitionerknowinglypossesseda certain substance;(2) the substance
was oxycodone or a mixture containingoxycodone; (3) the oxycodoneor mixture

containing oxycodone was 28 grams or more; and, (4) Petitionerknew that the
substance was oxycodone or a mixture containing oxycodone.

Fla. Stat. §

893.135(1 )(c) (2008); Exh. A, pp. 64-65.
Petitioner's grand theft offense, to which he pleaded guilty, required the
following elementsof proof: (1) Petitionerknowinglyobtained or used the property
of another; and (2) Petitioner did so with the intent to either temporarily or
permanentlydeprive the victim of the property. Fla. Stat.§ 812.014(1)(2008).
The offensesof trafficking in oxycodoneand grand theft each requires proof
of facts that the other does not, thereby satisfying the Blockburgertest. Petitioner
21

A63

Case 5:15-cv-00354-WTH-PRL Document 47 Filed 10/22/18 Page 22 of 25 PagelD 1545

has not shown that the state court's rejectionof his doublejeopardy argumentwas
contrary to or an unreasonable application of clearly established federal law, or
that it was based on an unreasonabledeterminationof the facts. Petitioneris not
entitled to relief on Ground 9.

Ground 10:

Abuse of discretion in precludingevidence

Petitioner argues that the trial court abused its discretion when it granted a
motion in limine by the State excluding testimony regarding the victim's selling
and/or trading of prescription pills. (Doc. 1, pp. 38-39.) Petitioner states that he
·attempted to proffer evidentiary facts/testimony proving that the victim's daily
occurrencesdealt with a constant flow of selling and trading piHs.• (Id. at p. 38.)
Petitioner raised this issue of trial court error in his pro se initial brief on direct

appeal. (Exh. D.)
A review of the trial transcript shows that the State moved for a motion in
limine to prevent Petitioner from testifying regarding any alleged drug activity by
the victim without any other evidence or corroboration. The exchange between
Assistant United States Attorney Metts, trial counsel Lamberti, and the court was

as follows:
MS. METTS:

Your Honor, I, of course cannot ask whether or not the
defendant's goingto testify and I wouldn't do that.
But in listeningto his jail calls with his parents, or his mom
specifically in this situation, I would move that he not be
allowed to addressany issues with the victim selllng his
narcoticsor trading them or anything like that.

22

A64

Case 5:15-cv-00354-WTH-PRL Document 47 Filed 10'22/18 Page 23 of 25 PagelD 1546

There's been no evidencepresented to my office that he
has, in fact, in the past sold them or tradeshis pills or
anything like that. And the victim In this case is Mr.
Snead.
Your Honor, it would be Impropercharacter evidence. It
would be essentially to, you know, assassinate the
victim's credibility by some prior bad act that they're not
even proving up or anything like that.
And the only reason I say that, Your Honor, is because
I've listened to hours upon hours of Mr. McKiver's
conversationswith hia family. And I believe that If he took

the stand that's something that he would want to testify

to.
But ifs definltely inadmissible. There's no evidence of it.
There's no corroborationof it. It would be THE COURT:

Without evidence and corroboration, I agree with

you. And I don't what Mr. Lamberti may have or may say.
But as far as her motion, Mr. Lamberti, you have any

response to that?
MR. LAMBERTI: May I have a momentwith my cHent,Judge?
THE COURT:

Yea.

MR. LAMBERTI: Judge, after consultationwith my client, we don't- we
have no objection to the state's motion in limine in regard
to the victim THE COURT:

All right.

MR. LAMBERTI: -- and whether or not he sells or transfers this pills to
other people.
(Exh. B, pp. 11-13.)

23
A65

Case 5:15-cv-00354-WfH-PRL Document 47 Filed 10/22/18 Page 24 of 25

Pagel □

1547

The trial court did not deny Petitioner the opportunity to present evidence
(other than his uncorroborated testimony) ·regarding the victim's alleged drug
activity.

Trial counsel never sought to present such evidence (a decision

discussedin Grounds 1-3 above). Accordingly, the trial court did not abuse its
disaetion by declining to permit Petitioner to testify-with

no other evidence to

support his clalms--that the victim sold and traded his prescription pills.
Petitioner has not shown that the state court's rejection of this claim was
contrary to or an unreasonable application of clearly established federal law, or
that it was based on an unreasonable determination of the facts. Petitioner is not
entitled to relief on Ground 10.

Grounds 11, 12: Mandatory minimum sentence vlolatad due process and
the Eighth Amendment prohibition of cruel and unusual
punishment
Petitioner alleges that the 25-year mandatory minimum sentence he
received pursuant to Fla. Stat. § 893.135 violated his due process rights and Eighth
Amendment right to be free from cruel and unusual punishment. (Docs. 39-40.)
The state court rejected these arguments in Petitioner's second Rule 3.800
proceedings,· and that decision was affirmed by the Fifth District Court of Appeal.

(Exhs. FF, II.) The state court wrote:
The Florida Supreme Court has found these statutes are not
unconstitutional in State v. Benitez, 395 So. 2d 514 (Fla.1981). The
Florida Supreme Court address[ed] each of the issues raised by
Defendant and held section 893.135 did not violate the . . . due
process clause and prohibition against cruel and unusual
punishment. Id. at 518-20.

24
A66

Case 5:15-cv-00354-WTH-PRL Document 47 Filed 10/22/18 Page 25 of 25 PagelD 1548

(Exh. FF, p. 2.) The state court's ruling on 1hisiaaue la consistentwith federal law.
Petitioners jury found by special verdict that the quantity of the oxycodonewas
more than 28 grams but jess than 30 kilograms. See Alleyne v. UnitedStates,570
U.S. 99 (2013) ('Yacts that increase mandatory minimum sentences must be
submitted to the jury"). Grounds 11 and 12 are without merit

Conclusion
The Petition (Doc. 1) ia DENIEDwith prejudice. The Clerk Is directedto
enter judgment accordingly. Any of Petitioner's allegations not specifically

addressedin this Order have been found to be without merit. The Clerk is directed
to terminate any pending motions, and close the file.

IT IS SO ORDERED.
DONEAND ORDEREDat Ocala, Florida,this 22nd day of October, 2018.

UNITEDSTATESDISTRICT
JUDGE

Copfes:

Petitioner,Counsel of Record

25

A67

Case 5;15-cv-00354-WTH-PRL Document 48 Filed 10/23/18 Page 1 of 2 PagelD 1549

UNITED STATIS DISTRicr COURT
MIDDLE DISTRICT 01' PLORIDA

OCALADMSION
LUTHERMCKIVER.
Petitioner,

v.

Case No: 5:15-ev-354-0c-llPRL

SECRETARY,JLORIDA
DEPARTMENTO:FCORRECrIONS
and ATTORNEYGENERAL,STATE

or FLORIDA

Relponden1s.
JUDGMENT IN A CIVIl.. CASE
Declslollby Coart. This actioncame beforethe Courtanda decisionhas beenrendered.

IT IS ORDEREDANDADJUDGED
Plnuant to the Comt's order entered OD October22, 2018, the pedlion iS Deaicdwith

Prejudice.

ELIZABETH
M. WARREN.
CLERK
slL.Kmdand,DeputyCJeit

A68

.•

.w

t"

r'"

1 1
1
1
II ii
f
!ljl
P11
H
il
!,
,~
:li;1U!
i!i,~
I
1'i
.•
J,ii,f•,-1
l.1iUJ
ti!r,iU
j ~J
I
I
I

>

1111

.. Ill;

1,1'

~ 1:,1
.. •

.._;t!

..
-

-

"" -

~f
- • .

1 w"=

,

·:

•

•

11·(ill -1,';;,;,~ 1·t,1,'11I
JI I • 'i rl I J 5 =-I~ I

S
1'
I - SM

r

i

-

S

H

8
.

I!•

■

a. - •

~

-

a I I~

iI1 af If(,( Ir•!h
tf ,, 1i1'-h
i
1

i" !p1 r1 :, tr if! ;a: ~
.
, 11ii 1~
--1
1!
h
It
11
11111
f1
ii,;
u
li
11
1,
►
u
iiiu
1
(;
~
111 J' It 1,
·11! 1
..
,,
,~
!~~,
..
t 1• J f.
l · ,., r .a .. ' ' · ~iit ft f,. f
~ ...
1
.

t1

n

11
i

I

I
r

•;,

!d

~

I·1• '1 •! z 1.:
,...

p

,;!

1

i

.

ii! t

• ~

!

!

I ,,~,·
!Ill.,..1~-J ;
if
Ji
.
'lu
i
JJ
~1
Ir •!,.,!
1111
~
h ··t l,i., ~ Ir H HJ :1 t r1I
f .,,,•r

j

-

i1
.rig t
-

-,.

..

1J1"

....

I

